'*■5

APPENDIX

la
APPENDIX A
[PUBLISH]
In the United States Court of Appeals
for the Eleventh Circuit
No. 17-10636
Agency No. A072-565-851
Pankajkumar S. Patel, Jyotsnaben P. Patel,
Nishantkumar Patel,
Petitioners,
versus
United States Attorney General,
Respondent.
(August 19,2020)
Petition for Review of a Decision of
the Board of Immigration Appeals
Before WILLIAM PRYOR, Chief Judge, WILSON,
MARTIN, JORDAN, ROSENBAUM, JILL PRYOR,
NEWSOM, BRANCH, GRANT, LUCK, LAGOA,
TJOFLAT, ED CARNES, and MARCUS, Circuit
Judges.*
* Judges Gerald Bard Tjoflat, Stanley Marcus, and Ed Carnes
were members of the en banc Court that heard oral argument in
this case. Judges Tjoflat and Marcus took senior status on No­
vember 19, 2019 and December 6, 2019, respectively, and both
have elected to participate in this decision pursuant to 28 U.S.C.
§ 46(c)(1). Judge Ed Carnes took senior status on June 30, 2020
and has elected to participate in this decision pursuant to 28 U.S.C.

2a
TJOFLAT, Circuit Judge, delivered the opinion of the
Court, in which WILLIAM PRYOR, Chief Judge,
NEWSOM, BRANCH, GRANT, LUCK, LAGOA, ED
CARNES, and MARCUS, Circuit Judges, joined.
TJOFLAT, Circuit Judge:
Pankajkumar Patel seeks review of a final order of
removal from the Board of Immigration Appeals (“BIA”).
Patel sought discretionary relief under 8 U.S.C. § 1255(i),
which permits an alien who entered without inspection
to obtain relief from removal if, among other things, the
alien is the beneficiary of a labor certification. The BIA
determined that Patel was ineligible for such relief be­
cause he falsely represented himself as a citizen for a
benefit when he applied for a Georgia driver’s license.
See 8 U.S.C. § 1182(a)(6)(C)(ii)(I). Patel now petitions,
asking us to resolve two questions. First, he argues
that, as a factual matter, he did not falsely represent
himself as a citizen because he merely checked the
wrong box on the license application form. Second, Pa­
tel argues that his misrepresentation was not material
because the benefit, a Georgia driver’s license, is avail­
able to non-citizens.
This case requires us to determine the scope of a
jurisdiction-stripping provision in the Immigration and
Nationality Act, 8 U.S.C. § 1252(a)(2)(B). That provi­
sion provides that “no court shall have jurisdiction to
review” “any judgment regarding the granting of re­
lief” for certain enumerated categories of discretionary
relief. 8 U.S.C. § 1252(a)(2)(B)(i). Section 1255, the re­
lief for which Patel applied, is one of the enumerated
categories in § 1252(a)(2)(B)(i).
§ 46(c)(2). Judge Andrew L. Brasher joined the Court on June 30,
2020 and did not participate in this en banc proceeding.

3a
In our first published opinion to interpret
§ 1252(a)(2)(B)(i), we drew a distinction between “ap­
pellate review of discretionary decisions” and “review
of non-discretionary legal decisions that pertain to
statutory eligibility for discretionary reliefGonzalezOropeza v. U.S. Attorney General, 321 F.3d 1331, 1332
(11th Cir. 2003). Since then, we have held in numerous
cases that we lack jurisdiction to review discretionary
determinations underlying discretionary relief, while
we retain jurisdiction to review non-discretionary deci­
sions underlying that relief. The problem: that inter­
pretation is based on the predecessor version of
§ 1252(a)(2)(B) and is unmoored from the current statu­
tory language. Today, we overrule such precedent,
holding that we are precluded from reviewing “any
judgment regarding the granting of relief under [8
U.S.C §§] 1182(h), 1182(i), 1229b, 1229c, or 1255” except
to the extent that such review involves constitutional
claims or questions of law.
See 8 U.S.C.
§§ 1252(a)(2)(B)(i) & (D).
Patel’s petition presents both a factual challenge
and a question of law. We hold that § 1252(a)(2)(B)(i)
precludes our review of the factual challenge. We re­
tain jurisdiction to review the question of law related to
whether a Georgia driver’s license is a material benefit.
I.
Patel is a citizen of India who entered the United
States without inspection. In 2012, the Department of
Homeland Security issued a notice to appear to Patel
charging him as removable for being present in the
United States without inspection. In a subsequent re­
moval proceeding before an immigration judge, Patel
•conceded that he was removable, but he sought discre­
tionary relief from removal by applying for adjustment

4a
of status under 8 U.S.C. § 1255(i). Section 1255 permits
an alien who entered without inspection to obtain relief
from removal if, among other things, the alien is the
beneficiary of a labor certification.
See
§ 1255(i)(l)(B)(ii). i

i

8 U.S.C. § 1255(i)(l) provides:

(1) Notwithstanding the provisions of subsections (a) and (c)
of this section, an alien physically present in the United States—
(A) who—
(i) entered the United States without inspection; or
(ii) is within one of the classes enumerated in subsection
(c) of this section;
(B) who is the beneficiary (including a spouse or child of the
principal alien, if eligible to receive a visa under section 1158(d) of
this title) of—
(i) a petition for classification under section 1154 of this
title that was filed with the Attorney General on or be­
fore April 30,2001; or
(ii) an application for a labor certification under section
1182(a)(5)(A) of this title that was filed pursuant to the
regulations of the Secretary of Labor on or before such
date; and
(C) who, in the case of a beneficiary of a petition for classifica­
tion, or an application for labor certification, described in subpara­
graph (B) that was filed after January 14, 1998, is physically pre­
sent in the United States on December 21,2000;
may apply to the Attorney General for the adjustment of his
or her status to that of an alien lawfully admitted for permanent
residence.

5^
Patel qualified to apply for relief pursuant to
§ 1255(i) as he had an approved 1-140 employment au­
thorization document.2
The Attorney General may adjust an alien’s status
to that of a lawful permanent resident if the alien meets
certain requirements. See § 1255(i); see also 8 C.F.R.
§ 1245.10(b) (listing the eligibility requirements for an
alien who entered without inspection and is seeking ad­
justment of status based on a labor certification). The
parties agree that Patel meets all the statutory criteria
for adjustment of status except one: the applicant must
show “clearly and beyond doubt” that he is not inad­
missible. See 8 U.S.C. § 1229a(c)(2) (in a removal pro­
ceeding, an alien applying for admission “has the bur­
den of establishing ... that the alien is clearly and be­
yond doubt entitled to be admitted and is not inadmis­
sible”).
Patel’s admissibility is in doubt because he falsely
represented that he was a U.S. citizen when he applied
for a Georgia driver’s license in 2008. When applying
for the license, Patel checked a box indicating that he is
a U.S. citizen. This incident arguably renders Patel in­
admissible pursuant to 8 U.S.C. § 1182(a)(6)(C)(ii)(I),
which says:
Any alien who falsely represents, or has falsely
represented, himself or herself to be a citizen of
the United States for any purpose or benefit
2 Patel’s wife, Jyotsnaben Patel, and son, Nishantkumar Pa­
tel, are also parties to this appeal. They too are subject to removal
for entering the country without inspection. They are seeking ad­
justment of status as derivative beneficiaries of Patel’s labor certi­
fication. See § 1255(i)(l)(B). As Patel is the lead respondent, and
the outcome of all three petitions for relief depends on his case, we
focus solely on Patel for the convenience of the reader.

6a
under this chapter (including section 1324a of
this title) or any other Federal or State law is
inadmissible.
The BIA has interpreted this section to require
three elements: (1) a false representation of citizenship,
(2) that is material to a purpose or benefit under the
law, (3) with the subjective intent of obtaining the pur­
pose or benefit. Matter of Richmond, 26 I. & N. Dec.
779, 786-87 (B.I.A. 2016).
There was no dispute that Patel made a false rep­
resentation of citizenship. Nor was there any dispute
that a driver’s license is a benefit under state law. Pa­
tel challenged the applicability of the statute on two
grounds: (1) he lacked the requisite subjective intent to
falsely represent himself as a citizen, and (2) the false
representation was not material.
At the removal hearing, Patel argued that he did
not have the requisite subjective intent because he
simply made a mistake. To prove that it was a mistake,
Patel claimed that he provided his alien registration
number and his employment authorization card to the
Georgia Department of Motor Vehicles with his driv­
er’s license application. Patel argued that it would have
made no sense to document his non-citizen status if his
goal were to pose as a citizen. Patel also argued that a
false representation of citizenship was not material to
obtaining a driver’s license because an alien is eligible
to receive a driver’s license from Georgia. As proof,
Patel observed that he had previously received a li­
cense from Georgia.
The Immigration Judge rejected Patel’s argu­
ments. The Immigration Judge determined that Patel
was not credible. He was evasive when testifying and
would not explain to the Court exactly how he had

7a
made a mistake. Furthermore, the Immigration Judge
examined the application and determined that Patel did
not write his alien registration number on the applica­
tion. The application asks about citizenship and directs
the applicant to provide his alien registration number if
he is not a citizen. Patel marked that he was a citizen
and did not write down his alien registration number.
The application also does not reflect that Patel provid­
ed his employment authorization card. In the section
on the form where the Georgia official is to list the doc­
uments accepted, the only document mentioned is Pa­
tel’s prior Georgia driver’s license. In short, the evi­
dence contradicted Patel’s testimony, which the Immi­
gration Judge already suspected was not candid, so the
Immigration Judge did not believe Patel’s claim that he
made a mistake. The Immigration Judge found that
Patel willfully and purposefully indicated that he was a
U.S. citizen.
The Immigration Judge also held that Patel failed
to prove that his false representation was immaterial
because he failed to meet his burden of proving that he
was otherwise eligible for a driver’s license. The fact
that Patel had previously obtained a license in Georgia
is inconclusive because Patel might have misrepresent­
ed his citizenship on his past application too. Alterna­
tively, even if Patel obtained his prior license without
claiming citizenship, the rules governing who qualifies
for a license in Georgia could have changed in the inter­
im. Patel simply did not provide enough evidence to
show that he was otherwise eligible for the license.3
3 To prove his theory, Patel asked the Immigration Judge to
take judicial notice of Georgia law. The Immigration Judge re­
fused. Federal courts, however, must take judicial notice of state
law. See Lamar v. Micou, 114 U.S. 218,223,5 S. Ct. 857, 859 (1885)

8a
Because Patel failed to show that he was not inad­
missible, the Immigration Judge denied his application
for adjustment of status and ordered the Patels re­
moved.
The BIA affirmed. It found no clear error in the
factual finding that Patel was not credible and made the
false representation with the subjective intent to obtain
a license. The BIA also agreed that Patel did not pro­
duce enough evidence to prove that he was otherwise
eligible for a license—i.e., to prove that the false repre­
sentation was immaterial.
One BIA member dissented. She observed that
Georgia law extended driver’s licenses to those with
lawful status. See Ga. Comp. R. & Regs. 375-3-1.02(6)
(“Each customer must provide documentation of his or
her citizenship or lawful status in the United States.”
(emphasis added)). And an alien with “a pending appli­
cation for lawful permanent residence” has lawful sta­
tus for the purpose of a driver’s license application. 6
C.F.R. § 37.3. Since Patel had a pending application for
lawful permanent residence when he applied for the
Georgia license, he did not need citizenship to obtain
the license. Thus, the dissenting BIA member rea­
soned, the false representation was immaterial.
Patel now seeks review of the BIA’s decision. A
panel of this Court held that under § 1252(a)(2)(B)(i) it
lacked jurisdiction to review whether Patel, as a factual
matter, had the requisite subjective intent to misrepre­
sent his citizenship status. Patel v. U.S. Att’y Gen., 917
(“The law of any state of the Union, whether depending upon stat­
utes or upon judicial opinions, is a matter of which the courts of the
United States are bound to take judicial notice, without plea or
proof.”).

9a
F.3d 1319,1322 (11th Cir.), reh’g en banc granted, opin­
ion vacated, 786 F. App’x 1005 (11th Cir. 2019). The
panel also determined that it had jurisdiction to review
Patel’s legal challenge and determined that the provi­
sion on which the BIA found Patel inadmissible,
§ 1182(a)(6)(C)(ii)(I), does not contain a materiality el­
ement. Id. We granted rehearing en banc to resolve
the first of these issues—whether this Court has juris­
diction to review the factual findings underlying the
BIA’s determination that Patel had the subjective in­
tent to misrepresent his citizenship status. In doing so,
we must interpret 8 U.S.C. § 1252(a)(2)(B)(i).
II.
To understand the limitations of 8 U.S.C.
§ 1252(a)(2)(B)(i), one must understand the underlying
immigration scheme. This section first provides a quick
primer on the background of relief from removal and
then outlines the history of judicial review on removal
proceedings.
A.
Congress has “plenary power to make rules for the
admission of aliens and to exclude those who possess
those characteristics which Congress has forbidden.”
Kleindienst v. Mandel, 408 U.S. 753, 766, 92 S. Ct. 2576,
2583 (1972) (quoting Boutilierv. INS, 387 U.S. 118,123,
87 S. Ct. 1563, 1567 (1967)). Since 1875, Congress has
placed restrictions on who can enter and remain in the
United States. Id.
Prior to 1940, the Executive Branch enforced these
restrictions but had no authority to grant discretionary
relief for removable aliens. Foti v. INS, 375 U.S. 217,

10a
222, 84 S. Ct. 306, 310 (1963).4 A determination that an
alien was removable “necessarily resulted in, and was
invariably accompanied by, a deportation order.” Id.
Extenuating circumstances had to be presented via a
private bill in Congress. Id.; see also INS v. Jong Ha
Wang, 450 U.S. 139, 140 n.l, 101 S. Ct. 1027, 1029 n.l
(1981). The only other route to relief for aliens who had
been ordered deported was via a writ of habeas corpus.
INS v. St. Cyr, 533 U.S. 289, 306, 121 S. Ct. 2271, 2282
(2001).
With the passage of the Alien Registration Act of
1940, Congress gave the Attorney General some discre­
tion to allow for voluntary departure or to suspend de­
portation for aliens of “good moral character whose de­
portation ‘would result in serious economic detriment’
to the aliens or their families.” INS v. Phinpathya, 464
U.S. 183,190,104 S. Ct. 584, 589 (1984) (quoting the Al­
ien Registration Act of 1940, Pub. L. No. 76-670, § 20,

4 Some have pointed out that the Executive Branch “did have
some very limited executive discretion before 1940 through the
Seventh Proviso of the Immigration Act of 1917,” which provided
that “aliens returning after a temporary absence to an unrelin­
quished United States domicile of seven consecutive years may be
admitted in the discretion of the Attorney General and under such
conditions as he may prescribe.” Kati L. Griffith, Perfecting Pub­
lic Immigration Legislation: Private Immigration Bills and De­
portable Lawful Permanent Residents, 18 Geo. Immigr. L J. 273,
304 (2004) (quoting Immigration Act of 1917, Pub. L. No. 301, 39
Stat. 874 (1917) (codified as amended at 8 U.S.C. § 156 (1917)) (re­
pealed 1952)). Although the Seventh Provisio applied “literally
only to exclusion proceedings,” it was used as a nunc pro tunc cor­
rection of the record of reentry to suspend deportations in some
removal proceedings. Id. (citing St. Cyr, 533 U.S. at 289,121 S. Ct.
at 2282).

11a
54 Stat. 670, 672).5 In 1948, Congress amended the
statute to make suspension available for “aliens who
‘resided continuously in the United States for seven
years or more’ and who could show good moral charac­
ter for the preceding five years, regardless of family
ties.” Id. (quoting Act of July 1, 1948, ch. 783, 62 Stat.
1206).
In 1952, Congress enacted a comprehensive immi­
gration scheme, the Immigration and Nationality Act
(“INA”), which set out “the terms and conditions of
admission to the country and the subsequent treatment
of aliens lawfully in the country.” Chamber of Com­
merce v. Whiting, 563 U.S. 582, 587, 131 S. Ct. 1968,
1973 (2011) (plurality opinion) (quoting De Canas v. Bica, 424 U.S. 351, 353, 359, 96 S. Ct. 933, 938 (1976)). In­
cluded in that act were multiple categories of relief that
the Attorney General could grant, to certain eligible
recipients, in his discretion. See INA, Pub. L. No. 82414, 66 Stat. 163 (1952); see also St. Cyr, 533 U.S. at
295,121 S. Ct. at 2276 (interpreting INA § 212(c)).
In its most recent iteration, the INA includes many
types of relief that are deemed discretionary rather
than mandatory. Patel seeks a form of discretionary
relief under 8 U.S.C. § 1255, which allows aliens to ap­
ply for adjustment of status to a lawful permanent resi5 The Alien Registration Act allowed the Attorney General to
suspend deportation “[i]n the case of any alien ... who is deporta­
ble under any law of the United States and who has proved good
moral character for the preceding five years” if “[the Attorney
General] finds that such deportation would result in serious eco­
nomic detriment to a citizen or legally resident alien who is the
spouse, parent, or minor child of such deportable alien.” § 20, 54
Stat. at 671-72. However, if the Attorney General suspended de­
portation for more than six months, it was subject to review by
Congress. Id. § 20,54 Stat. at 672.

12a
dent. Other types of discretionary relief include read­
mission of immigrants in the United States, § 1181, can­
cellation of removal, § 1229b, and voluntary departure,
§ 1229c.
Through these provisions, “Congress made a delib­
erate choice to delegate to the Executive Branch, and
specifically to the Attorney General, the authority to
allow deportable aliens to remain in this country in cer­
tain specified circumstances.” INS v. Chadha, 462 U.S.
919, 954, 103 S. Ct. 2764, 2786 (1983). The Attorney
General can establish regulations, review administra­
tive determinations,6 delegate his authority, and per­
form other such acts as he deems necessary to effectu­
ate his authority to grant discretionary relief. 8 U.S.C.
§§ 1103(g)(1) & (2). Pursuant to those directives, the
Attorney General and the Secretary of Homeland Se­
curity have promulgated regulations interpreting the
INA. See 8 C.F.R. §§ 100-507. In addition, the Attor­
ney General delegated his authority to determine re­
movability to the Executive Office of Immigration Re­
view, which includes the immigration courts and the
BIA.7 See 6 U.S.C. § 521 (establishing the EOIR);
6 While the Attorney General can review decisions of the
BIA, he cannot dictate the actions of the BIA. See 8 U.S.C.
§§ 1003.1(d)(7) & (h); Marcello v. Bonds, 349 U.S. 302,311, 75 S. Ct.
757, 762 (1955) (“[T]he Attorney General cannot, under present
regulations, dictate the actions of the Board of Immigration Ap­
peals.”); United States ex rel. Accardi v. Shaughnessy, 347 U.S.
260, 267, 74 S. Ct. 499, 503 (1954) (“[A]s long as the regulations re­
main operative, the Attorney General denies himself the right to
sidestep the Board or dictate its decision in any manner.”).
7 Certain responsibilities under the INA were also delegated
to the Immigration and Naturalization Service (“INS”). Jaramillo
v. INS., 1 F.3d 1149,1151 (11th Cir. 1993) (en banc). In 2003, Con­
gress abolished the INS and transferred its functions to three
agencies within the newly formed Department of Homeland Secu-

13a
8 U.S.C. § 1103 (Attorney General has control of the
EOIR); 8 C.F.R. § 1003.0 (listing the offices that en­
compass the EOIR).
The discretion delegated to the Attorney General,
and in turn to the immigration courts, to grant ultimate
relief for otherwise removable aliens has been likened
to “probation or suspension of criminal sentence,” that
is, it functions as “an act of grace.” Jay v. Boyd, 351
U.S. 345, 354, 76 S. Ct. 919, 924 (1956) (quoting Escoe
v. Zerbst, 295 U.S. 490, 492, 55 S. Ct. 818, 819 (1935)).
Aliens are not entitled to the relief as a matter of right.
Id. They are, however, given a right to a ruling on such
relief.8 Id. Applicants who do not meet the threshold
statutory requirements are ineligible for consideration
of discretionary relief. Applicants who meet the
threshold requirements are eligible for a favorable ex­
ercise of discretion but are not entitled to it as a matter
of right. Id.; see also Barton v. Barr, 140 S. Ct. 1442,\
rity: U.S. Citizenship and Immigration Services, U.S. Customs and
Border Protection, and U.S. Immigration and Customs Enforce­
ment. See Homeland Security Act of 2002, Pub. L. No. 107-296,
§§ 441, 451, 471, 116 Stat. 2135, 2192, 2195-97, 2205. Thus, Con­
gress has delegated the authority to administer and enforce immi­
gration and naturalization laws to both the Secretary of Homeland
Security and the Attorney General. See 8 U.S.C. § 1103.
Since Patel’s petition arises in the removal context, we focus
on that avenue rather than on prosecutorial discretion to grant
relief.
8

Depending on the applicable regulations, an alien may or
may not be entitled to a ruling on whether certain eligibility re­
quirements are met. INS v. Rios-Pineda, 471 U.S. 444,449,105 S.
Ct. 2098, 2102 (1985) (“[I]f the Attorney General decides that relief
should be denied as a matter of discretion, he need not consider
whether the threshold statutory eligibility requirements are met.”
(citing INS v. Bagamasbad, 429 U.S. 24, 26, 97 S. Ct. 200, 201
(1976))).

14a
1445 (2020) (“If a lawful permanent resident meets
those eligibility requirements, the immigration judge
has discretion to (but is not required to) cancel removal
and allow the lawful permanent resident to remain in
the United States.”).
Even if an alien is eligible for relief, an immigration
judge can still decide—for any number of reasons—that
a favorable exercise of discretion is not warranted.
“[Eligibility in no way limits the considerations that
may guide the Attorney General in exercising her dis­
cretion to determine who, among those eligible, will be
accorded grace.” INS v. Yueh-Shaio Yang, 519 U.S. 26,
31, 117 S. Ct. 350, 353 (1996). For example, the Attor­
ney General can promulgate regulations that allow im­
migration judges to consider “confidential information”
in their assessment. See Jay, 351 U.S. at 349-50, 76 S.
Ct. at 922 (upholding the immigration judge’s determi­
nation that although the applicant “met the statutory
prerequisites [for] the favorable exercise of the discre­
tionary relief,” favorable action was not warranted in
light of certain “confidential information”).9

9 The special inquiry officer and the BIA considered certain
confidential information pursuant to then-8 C.F.R. § 244.3, which
provided, “In the case of an alien qualified for * * * suspension of
deportation under section * * * 244 of the Immigration and Nationality Act the determination as to whether the application for
* * * suspension of deportation shall be granted or denied (whether
such determination is made initially or on appeal) may be predicat­
ed upon confidential information without the disclosure thereof to
the applicant, if in the opinion of the officer or the Board making
the determination the disclosure of such information would be
prejudicial to the public interest, safety, or security.” Jay, 351
U.S. at 347-48, 76 S. Ct. at 921. Current regulations allow immi­
gration judges to consider confidential information to determine
the admissibility of arriving aliens. See 8 C.F.R. § 235.8.

15a
Alternatively, based on the circumstances present­
ed, immigration judges can make case-by-case determi­
nations that a favorable exercise of discretion is not
warranted. In United States ex rel. Hintopoulos
v. Shaughnessy, 353 U.S. 72, 77, 77 S. Ct. 618, 621
(1957), the Supreme Court upheld the BIA’s determi­
nation that, even though “deportation ... would result
in a serious economic detriment to an American citizen
infant child,” discretionary relief was not warranted
because the applicants waited to apply for relief until
after their son was bom and had no other close family
ties in the United States.10 Id. at 75-76, 77 S. Ct. at 620
(quoting the eligibility requirement of § 19(c) of the
Immigration Act of 1917). The Supreme Court has
stated that, in exercising their discretion, immigration
judges can consider the “flagrancy and nature of [al­
iens’] violations” of immigration laws, Rios-Pineda, 471
U.S. at 451,105 S. Ct. at 2103, as well as the egregious­
ness of an alien’s unconnected entry fraud, Yueh-Shaio
Yang, 519 U.S. at 31, 117 S. Ct. at 353. Immigration
judges, however, have no discretion to disregard the
statutory eligibility requirements to grant relief for an
ineligible alien. Jay, 351 U.S. at 349, 76 S. Ct. at 922.
Over time, with the increase of regulations inter­
preting the INA as well as precedential BIA decisions
that “provide clear and uniform guidance to ... immi­
gration judges ... on the proper interpretation and ad­
ministration of the Act and its implementing regula­
tions,” 8 C.F.R. § 1003.1(d)(1), the scope of an individual
10 The Court held that it was not error for the BIA “to take
cognizance of present-day conditions and congressional attitudes”
by looking to the policy reasons underlying the enactment of the
1952 INA in exercising its discretion. Hintopoulos, 353 U.S. at 78,
77 S. Ct. at 622.

16a
immigration judge’s discretion to grant relief has nar­
rowed. As the Supreme Court has said, “[tjhough the
agency’s discretion is unfettered at the outset, if it an­
nounces and follows—by rule or by settled course of
adjudication—a general policy by which its exercise of
discretion will be governed, an irrational departure
from that policy (as opposed to an avowed alteration of
it) could constitute action that must be overturned as
‘arbitrary, capricious, [or] an abuse of discretion.’”
Yueh-Shaio Yang, 519 U.S. at 32, 117 S. Ct. at 353
(quoting 5 U.S.C. § 706(2)(A)). This Circuit has like­
wise recognized that promulgation of regulations “could
limit the Attorney General’s discretion in ways that
make the ... determination effectively nondiscretion­
ary.” Bedoya-Melendez v. U.S. Att’y Gen., 680 F.3d
1321,1326 (11th Cir. 2012).
Still, in seeking relief, an alien has the burden of es­
tablishing that he (i) “satisfies the applicable eligibility
requirements”; and (ii) “with respect to any form of re­
lief that is granted in the exercise of discretion, that the
alien merits a favorable exercise of discretion.” 8
U.S.C. § 1229a(e)(4)(A). In applying for admission, the
alien must show “clearly and beyond doubt” that he “is
not inadmissible under section 1182.”
Id.
§ 1229a(c)(2)(A). If an immigration judge determines
that an alien is removable and orders that the alien be
removed, the judge shall inform the alien of the right to
appeal to the BIA and the consequences for failure to
depart. Id. § 1229a(c)(4)(C).
The BIA reviews an immigration judge’s findings
of fact for clear error and reviews “questions of law,
discretion, and judgment and all other issues” de novo.
8 C.F.R. § 1003.1(d)(3). If an alien seeks to appeal the
BIA’s final order of removal, he shall file a petition for
review with the court of appeals for the judicial circuit

17a
in which the immigration proceedings took place.
8 U.S.C. § 1252(b).
B.
Now, 8 U.S.C. § 1252 streamlines judicial review in
the Courts of Appeals and imposes certain limits on the
scope of that review. We outline the statutory changes
that lead to the current scheme.
Before 1952, “the sole means by which an alien
could test the legality of his or her deportation order
was by bringing a habeas corpus action in district
court.” St. Cyr, 533 U.S. at 306, 121 S. Ct. at 2282; see
also Heikkila v. Barber, 345 U.S. 229,230, 73 S. Ct. 603,
604 (1953). Courts consistently rejected attempts to
use other types of relief to challenge deportation or­
ders, recognizing that “Congress had intended to make
these administrative decisions nonreviewable to the
fullest extent possible under the Constitution.” Heikki­
la, 345 U.S. at 234, 73 S. Ct. at 605. Specifically, the
Immigration Act of 1917 stated that deportation orders
of the Attorney General should be “final,” and the Su­
preme Court interpreted that language to preclude ju­
dicial review except by habeas corpus. Id.; see also
Shaughnessy v. Pedreiro, 349 U.S. 48, 52, 75 S. Ct. 591,
594 (1955).
Like the Immigration Act of 1917, the INA of 1952
used language that deportation orders should be “fi­
nal.” Pedreiro, 349 U.S. at 52, 75 S. Ct. at 594. Howev­
er, in 1955, the Supreme Court was forced to reconcile
its previous interpretation of this language with the
right of review provided by the Administrative Proce­
dure Act (the “APA”).11 Id. The Court concluded that
11 Congress enacted the APA in 1946. Section 10 of the APA
provides a right of review for “final agency action[s]” except so far

18a
the finality language in the 1952 IN A was ambiguous
and could not be read as foreclosing judicial review, es­
pecially given the purposes of the APA. Id. Hence, the
lack of explicit judicial review limitations in the INA of
1952 opened other pathways for aliens to obtain judicial
review of deportation orders. Id.; St. Cyr, 533 U.S. at
306,121 S. Ct. at 2282.
That period of full judicial review was short lived,
curtailed by amendments made to the INA in 1961. See
Act of Sept. 26, 1961, Pub. L. No. 87-301, 75 Stat. 650.
The 1961 Act withdrew jurisdiction from the district
courts and consolidated review in the courts of appeals.
St. Cyr, 533 U.S. at 306 n.26,121 S. Ct. at 2282 n.26; Foti, 375 U.S. at 225, 84 S. Ct. at 312. “[T]he plain objec­
tive of [§] 106(a) was ‘to create a single, separate, statu­
tory form of judicial review of administrative orders for
the deportation of ... aliens.’” Foti, 375 U.S. at 225, 84
S. Ct. at 312. Section 106(a) of the 1961 Act provided
the “sole and exclusive procedure for, the judicial re­
view of all final orders of deportation,” which included
determinations related to discretionary relief. Id. at
221, 84 S. Ct. at 310 (quoting 75 Stat. at 651). It was
implemented for the express purpose of “abbreviat[ing]
the process of judicial review of deportation orders”
and preventing “dilatory tactics in the courts.” Id. at
224,84 S. Ct. at 311.
In 1996, Congress amended the INA with the Ille­
gal Immigration Reform and Immigrant Responsibility
Act (IIRIRA), Pub. L. No. 104-208, §309, 110 Stat.
3009-626 (1996). The IIRIRA made significant revi­
sions to federal immigration law. One major change
as (1) “statutes preclude judicial review” or (2) the action is, by
law, committed to agency discretion. Administrative Procedure
Act, Pub. L. No. 79-404, § 10, 60 Stat. 237,243 (1946).

19a
was in terminology; “Congress abolished the distinction
between exclusion and deportation procedures and cre­
ated a uniform proceeding known as ‘removal.”’ Vartelas v. Holder, 566 U.S. 257, 262, 132 S. Ct. 1479, 1484
(2012). Another change was to significantly revise the
judicial-review scheme. See Calcano-Martinez v. INS,
533 U.S. 348, 350, 121 S. Ct. 2268, 2269 (2001); Rerbo v.
Am.-Arab Anti-Discrimination Comm., 525 U.S. 471,
475,119 S. Ct. 936,940 (1999).
The IIRIRA included permanent rules that would
go into effect on April 1, 1997, as well as temporary
rules that applied during the transition period. See
Pub. L. No. 104-208, § 309, 110 Stat. at 3009-626. The
transitional rules provided that “there shall be no ap­
peal of any discretionary decision under section 212(c),
212(h), 212(i), 244, or 245 of the Immigration and Na­
tionality Act (as in effect as of the date of the enact­
ment of this Act).”12 Id. § 309(b)(4)(E). The permanent
rules set up the current judicial-review structure
providing that, “Notwithstanding any other provision
of law, no court shall have jurisdiction to review” “(i)
any judgment regarding the granting of relief under
section 212(h), 212(i), 240A, 240B, or 245, or” “(ii) any
other decision or action of the Attorney General the au­
thority for which is specified under this title to be in the
discretion of the Attorney General, other than the
granting of relief under section 208(a).” Id. at § 306.
In 2001, the Supreme Court grappled with the judi­
cial-review limitations in the permanent rules. In St.
Cyr, 533 U.S. at 314, 121 S. Ct. at 2287, the Supreme
Court determined that the writ of habeas corpus was
still available to alien petitioners despite the limitations
12 These sections correspond to 8 U.S.C. §§ 1182(h), 1182(i),
1229b, 1229c, and 1255.

20a
of “judicial review” in the IIRIRA. The INS argued
that three provisions of the IIRIRA—8 U.S.C.
§ 1252(a)(1), 1252(a)(2)(C), and 1252(b)(9)—precluded
the District Court from exercising its jurisdiction to
consider St. Cyr’s habeas corpus petition.13 Id. at 31011, 121 S. Ct. at 2285. The Supreme Court concluded
that, because “judicial review” is a historically distinct
term from “habeas corpus,” the limitations in these
statutes did not bar jurisdiction under 28 U.S.C. § 2241,
the general habeas statute. Id. at 312-13, 121 S. Ct. at
2285-86. The clear import of St. Cyr was that judicial
review of questions of law regarding removal orders
needed to be preserved in some manner to avoid creat­
ing serious constitutional problems. See id. at 300, 121
S. Ct. at 2279 (“A construction of the amendments at
issue that would entirely preclude review of a pure
question of law by any court would give rise to substan­
tial constitutional questions.”). St. Cyr found that such
review was preserved by the availability of habeas cor­
pus, but left open the possibility that Congress could
otherwise restrict the availability of the writ of habeas
corpus as long as “question[s] of law” could be an­
swered in a judicial forum. Id. at 314,121 S. Ct. at 2287.
Following St. Cyr, Congress enacted the Real ID
Act of 2005, which added another provision to § 1252.
See Pub. L. No. 109-13, 119 Stat. 231. Section
1252(a)(2)(D), as currently enacted, states:
13 St. Cyr challenged the Attorney General’s conclusion that,
as a matter of statutory interpretation, he was not eligible for dis­
cretionary relief. He alleged that the restrictions on discretionary
relief for aliens convicted of offenses involving moral turpitude or
the illicit traffic in narcotics contained in the Antiterrorism and
Effective Death Penalty Act of 1996 and the IIRIRA do not apply
to aliens who pleaded guilty to those crimes before the enactment
of the restrictions. St. Cyr, 533 U.S. at 293,121 S. Ct. at 2275.

21a
Nothing in subparagraph (B) or (C), or in any
other provision of this chapter (other than this
section) which limits or eliminates judicial re*
view, shall be construed as precluding review
of constitutional claims or questions of law
raised upon a petition for review filed with an
appropriate court of appeals in accordance with
this section.
See 8 U.S.C. 1252(a)(2)(D); Pub. L. No. 109-18 at
§ 106(a)(l)(iii), 119 Stat. at 310.14
The Real ID Act also added a provision that a peti­
tion for review filed with the Court of Appeals in ac­
cordance with § 1252 should be the “sole and exclusive
means for judicial review of an order of removal” and
that “judicial review” included “habeas corpus review.”
Id. § 106(a)(l)(B)(5); see also Nasrallah v. Barr, 140 S.
Ct. 1683, 1690 (2020) (recognizing that 8 U.S.C.
§ 1252(a)(5) supersedes St. Cyr).
In its entirety, 8 U.S.C. § 1252(a)(2)(B) now reads:
Notwithstanding any other provision of law
(statutory or nonstatutory), including section
2241 of Title 28, or any other habeas corpus
provision, and sections 1361 and 1651 of such ti­
tle, and except as provided in subparagraph
(D), and regardless of whether the judgment,
decision, or action is made in removal proceed14 The Real ID Act also added prefatory language to
§ 1252(a)(2)(B) & (C), by inserting “(statutory or nonstatutory),
including section 2241 of title 28, United States Code, or any other
habeas corpus provision, and sections 1361 and 1651 of such title,
and except as provided in subparagraph (D),” § 106(a)(l)(ii), 119
Stat. at 310, and “regardless of whether the judgment, decision, or
action is made in removal proceedings,” id. at § 101(f).

22a
ings, no court shall have jurisdiction to re­
view—
(i) any judgment regarding the granting of re­
lief under section 1182(h), 1182(i), 1229b,
1229c, or 1255 of this title,15 or
(ii) any other decision or action of the Attorney
General or the Secretary of Homeland Se­
curity the authority for which is specified
under this subchapter to be in the discre­
tion of the Attorney General or the Secre­
tary of Homeland Security, other than the
granting of relief under section 1158(a) of
this title.
Before proceeding to the merits of Patel’s petition,
we must assess whether we have jurisdiction under
§ 1252 to consider his petition.
III.
We start where we always start—with the lan­
guage of the statute. Section 1252, entitled “Judicial
review of orders of removal,” first gives the Courts of
Appeals jurisdiction to review “final order[s] of remov­
al.” 8 U.S.C. § 1252(a)(1).16
15 “Sections 1182(h) and 1182(i) address waivers of inadmissi­
bility based on certain criminal offenses, and fraud or misrepresen­
tation, respectively; § 1229b addresses cancellation of removal;
§ 1229c, voluntary departure; and § 1255, adjustment of status.”
Kucana v. Holder, 558 U.S. 283, 239 n.2, 130 S. Ct. 827, 832 n.2
(2010).
16 A final order of removal encompasses “the rulings made by
the immigration judge or Board of Immigration Appeals that af­
fect the validity of the final order of removal.” Nasrallah, 140 S.
Ct. at 1691. Review of a final order of removal extends to “all mat­
ters on which the validity of the final order is contingent.” Id.

23a
But what Congress giveth, it can also taketh away.
And in § 1252(a)(2), the statute explicitly lists certain
“[m]atters [that are] not subject to judicial review.”
Included among these matters are “[d]enials of discre­
tionary relief.” Within that section are two categories
of “judgments], decisions] or action[s]” that “no court
shall have jurisdiction to review.” Id. § 1252(a)(2)(B).
The first—at issue here—strips courts of the jurisdic­
tion to review “any judgment regarding the granting of
relief under section 1182(h), 1182(i), 1229b, 1229c, or
1255 of this title.” See § 1252(a)(2)(B)(i). The second
strips courts of the jurisdiction to review decisions that
are statutorily specified to be in the discretion of the
Attorney General or the Secretary of Homeland Secu­
rity. See § 1252(a)(2)(B)(ii).
Section 1252(a)(2)(D) then restores our jurisdiction
to review constitutional claims or questions of law.
Such a claim must be colorable. Arias, v. U.S. Att’y
Gen., 482 F.3d 1281, 1284 (11th Cir. 2007). In other
words, a party may not dress up a claim with legal or
constitutional clothing to invoke our jurisdiction. Id.
Therefore, as the Supreme Court has interpreted the
jurisdiction-stripping provision of § 1252(a)(2)(B), “a
noncitizen may not bring a factual challenge to orders
denying discretionary relief.” Nasrallah, 140 S. Ct. at
1694.
Patel sought relief under § 1255(i)(l)(B)(ii). There
is no question that § 1255 is among the enumerated cat­
egories that § 1252(a)(2)(B)(i) bars from review. A
(quoting Chadha, 462 U.S. at 938,103 S. Ct. at 2777 (internal quo­
tation marks omitted)). As a final order of removal is contingent
on the denial of discretionary relief, the immigration judge’s evi­
dentiary findings regarding discretionary relief are merged into
the final order of removal. Id.

24a
straightforward reading of the jurisdiction-stripping
statute indicates that we lack jurisdiction to review Pa­
tel’s petition except to the extent that he raises consti­
tutional claims or questions of law.
The parties disagree with this plain-reading inter­
pretation, arguing that we have jurisdiction to review
certain types of judgments, but diverging as to the
scope of our jurisdiction.17 Patel argues that the stat­
ute only strips our jurisdiction to review the ultimate
discretionary relief determination, but that we retain
jurisdiction to review factual, legal, and constitutional
challenges to any eligibility determination. On the oth­
er hand, the Attorney General, relying on a string of
cases interpreting an earlier version of this statute, ar­
gues that we are precluded from reviewing both the
ultimate decision and factual challenges to discretion­
ary eligibility determinations, but can consider factual
challenges to non-discretionary eligibility determina­
tions. Under its interpretation, we retain jurisdiction
to review all constitutional and legal challenges.
This section proceeds in two parts. We first ex­
plain why the statute strips us of jurisdiction from con­
sidering Patel’s claim that, as a factual matter, he
checked the wrong box and thus lacked the requisite
subjective intent. We then explain why the parties are
misguided in their analyses.

17 Even though the parties agree that this Court has some
limited jurisdiction, we must consider jurisdictional issues sua
sponte. Gonzalez v. Thaler, 565 U.S. 134, 141, 132 S. Ct. 641, 648
(2012) (“When a requirement goes to subject-matter jurisdiction,
courts are obligated to consider sua sponte issues that the parties
have disclaimed or have not presented.”).

25a
A.
We lack jurisdiction to review the immigration
court’s determination that Patel was ineligible for relief
because, as a factual matter, he misrepresented his citi­
zenship. The statute means what it says, “no court
shall have jurisdiction to review” “any judgment re­
garding the granting of relief under section 1182(h),
1182©, 1229b, 1229c, or 1255 of [Title 8].” Except, as
stated in § 1252(a)(2)(D), we maintain jurisdiction to
review constitutional claims or questions of law. We
start with the language of § 1252(a)(2)(B)(i) itself and
then look at the statutory scheme.
1.
At heart, the varying approaches disagree over the
definition of judgment in § 1252(a)(2)(B)(i). The word
“judgment” is not defined in Title 8, Chapter 12 of the
United States Code. See 8 U.S.C. § 1101. Therefore, in
interpreting the statute, we give “each word its ordi­
nary, contemporary, [and] common meaning.” Artis v.
Dist. of Columbia, 138 S. Ct. 594, 603 n.8 (2018) (inter­
nal quotation marks and citation omitted). Black’s Law
Dictionary offers numerous definitions for judgment.
Here are a few representative samples:
• The official and authentic decision of a court of
justice upon the respective rights and claims of
the parties to an action or suit therein litigated
and submitted to its determination;
• The final decision of the court resolving the dis­
pute and determining the rights and obligations
of the parties;
• Determination of a court of competent jurisdic­
tion upon matters submitted to it.
• An opinion or estimate.

26a
Judgment, Black’s Law Dictionary (2020). Some of
these definitions suggest that “judgment” refers to a
final decision. Others suggest that “judgment” refers
to any decision made by a court. See id. (“Terms ‘deci­
sion’ and ‘judgment’ are commonly used interchangea­
bly.”).

Other dictionaries tell the same story. The Oxford
English Dictionary provides the following relevant def­
initions for “judgment”:
• The action or result of forming or pronouncing
an opinion.
o The formation of an opinion or conclusion
concerning something, esp. following careful
consideration or deliberation. Also: the opin­
ion or conclusion thus formed; an assessment,
a view, an estimate.
o That which has been formally decided and
pronounced to be the case; any formal or au­
thoritative decision, as of an umpire or arbi­
ter.
o The pronouncing of a deliberate opinion upon
a person or thing, or the opinion pronounced.
• The action or result of pronouncing a legal deci­
sion, and related uses.
o A decision formally made in regard to a mat­
ter under consideration in a court of law or
comparable context; a judicial decision, pro­
nouncement, or order; the action or act of
making or announcing such a decision.
Judgment, Oxford English Dictionary (2nd ed. 1989),
https://www.oed.com/view/Entry/1018927redirectedFro

27a
m=judgment#eid (last visited May 29, 2020).18 Similar­
ly, the following definitions are found in MerriamWebster:
•
•
•
•

An opinion or estimate so formed.
A formal utterance of an authoritative opinion.
A formal decision given by a court.
A proposition stating something believed or as­
serted.
Judgment, Merriam-Webster Online Dictionary,
https://www.merriamwebster.com/dictionary/judgment
(last visited May 3, 2020). These definitions fall into
one of two camps: either judgment means the final de­
cision of a court, such as a sentence, or it is broad and
means any decision. Any decision is the better fit, be­
cause the statutory language is not limited to a final
judgment of removal, but rather “any judgment” re­
garding the five enumerated categories of relief.
Further, any doubt regarding the meaning of
“judgment” in § 1252(a)(2)(B)(i) should be resolved in
favor of a more expansive meaning given the modifying
phrases “any” and “regarding.” As the Supreme Court
has “repeatedly explained,” “any” is expansive. Babb
v. Wilkie, 140 S. Ct. 1168, 1173 n.3 (2020). The word
“any” means “[o]ne indiscriminately of whatever kind.”
Black’s Law Dictionary (6th ed. 1990); see also Babb,
140 S. Ct. at 1173 n.3 (“The standard dictionary defini­
tion of ‘any* is ‘[s]ome, regardless of quantity or num­
ber.’” (quoting American Heritage Dictionary 59 (def.
2) (1969)). Thus, “[r]ead naturally,” the word “any” has
an expansive effect on the word that it modifies. Unit18 There are other definitions referring to “judgment” as a
faculty (e.g., one has good judgment), among other more obscure
uses. Those are not relevant here.

28a
ed States v. Gonzales, 520 U.S. 1, 5,117 S. Ct. 1032,1035
(1997). In addition, modifiers such as “respecting” and
“regarding” have a broadening effect, “ensuring that
the scope of a provision covers not only its subject but
also matters relating to that subject.” Lamar, Archer
& Cofrin, LLP v. Appling, 138 S. Ct. 1752, 1760 (2018).
Thus, read in context, § 1252(a)(2)(B)(i) precludes us
from reviewing “whatever kind” of judgment “relating
to” the granting of relief under the five enumerated
sections.
2.

To interpret the scope of our jurisdiction, we must
also consider the rest of the statutory scheme. Section
1252(a)(2)(D) restores our jurisdiction to review consti­
tutional claims or questions of law. Guerrero-Lasprilla
v. Barr, 140 S. Ct. 1062,1068 (2020). To invoke jurisdic­
tion under § 1252(a)(2)(D), a petitioner must “allege at
least a colorable constitutional violation.” Arias, 482
F.3d at 1284. A colorable claim need not involve a
“substantial” violation, but “the claim must have some
possible validity.” Id. at 1284 n.2 (quoting Mehilli v.
Gonzales, 433 F.3d 86, 93-94 (1st Cir. 2005)). “A peti­
tioner may not create the jurisdiction that Congress
chose to remove simply by cloaking an abuse of discre­
tion argument in constitutional garb.” Id. at 1284
(quoting Torres-Aguilar v. INS, 246 F.3d 1267, 1271
(9th Cir. 2001)). The Supreme Court also recently ad­
dressed the scope of “questions of law” in
§ 1252(a)(2)(D), determining that it restores the Court’s
jurisdiction to review the “application of a legal stand­
ard to undisputed or established facts.” GuerreroLasprilla, 140 S. Ct. at 1068. The BIA, in reviewing an
immigration judge’s decision, establishes the facts and
makes legal determinations. On review, we are juris-

29a
dictionally limited to considering only colorable consti­
tutional or legal challenges to those established facts.
Reading § 1252(a)(2)(B)(i) in combination with
§ 1252(a)(2)(D), we determine that we lack jurisdiction
to review Patel’s challenges to “any judgment regard­
ing the granting relief’ under § 1255 unless such chal­
lenges involve a viable constitutional or legal claim. As
the Seventh Circuit wrote, “while the purpose of the
door-closing statute appears to be to place discretion­
ary rulings beyond the power of judicial review (hence
the caption of subsection (B)), the statute itself, read
literally, goes further and places all rulings other than
those resolving questions of law or constitutional issues
beyond the power of judicial review.” Cevilla v. Gonza­
les, 446 F.3d 658, 661 (7th Cir. 2006); cf. Jean v. Gonza­
les, 435 F.3d 475,480 (4th Cir. 2006).
Logically, the Seventh Circuit’s reasoning makes
sense given the background of St. Cyr. The Supreme
Court recognized that historically, habeas was a mech­
anism to review “questions of law that arose in the con­
text of discretionary relief.” 533 U.S. at 307,121 S. Ct.
at 2283 (emphasis added). But “the courts generally
did not review factual determinations made by the Ex­
ecutive.” Id. at 306, 121 S. Ct. at 2282 (emphasis add­
ed). The current judicial-review scheme ensures that
courts maintain jurisdiction to review “questions of
law” while streamlining the process of judicial review.
See Foti, 375 U.S. at 22425, 84 S. Ct. at 311-13. The dis­
sent argues that “judgment” must be read narrowly
because St. Cyr and other opinions emphasize a strong
presumption in favor of judicial review of administra­
tive action. Dissenting Op. at 57-59. The presumption
cautions against “foreclosing] all forms of meaningful
judicial review,” McNary v. Haitian Refugee Ctr., Inc.,
498 U.S. 479, 496, 111 S. Ct. 888, 898 (1991), and has led

30a
courts to preserve review of “questions of law,” St. Cyr,
533 U.S. at 307, 121 S. Ct. at 2283. Such review is pre­
served under our interpretation.19 Applicants who
have been denied a form of discretionary relief enu­
merated in § 1252(a)(2)(B)(i) can still obtain review of
constitutional and legal challenges to the denial of that
relief, including review of mixed questions of law and
fact. See Guerrero-Lasprilla, 140 S. Ct. at 1071. Via
explicit instruction from Congress, however, we are re­
stricted from reviewing factual challenges to denials of
certain kinds of discretionary relief.
The presumptions do not require a garbled inter­
pretation of the statute to ensure the broadest possible
review, especially to allow review of subordinate deci­
sions underpinning an ultimately unreviewable deci­
sion. We conclude that the best interpretation of
§ 1252(a)(2)(B)(i) is that we lack jurisdiction to review
“any judgment regarding the granting of relief’ under
the five enumerated categories, unless the petitioner
asserts a constitutional or legal challenge to the denial
of such relief.
B.
The Attorney General argues for a mixed model.
In his view, courts have jurisdiction to review non­
discretionary determinations underlying an alien’s re­
moval order, but lack jurisdiction to review discretion­
ary determinations, except to the extent that those de­
terminations raise questions of law or constitutional
claims. Patel argues that we retain broad jurisdiction
19 And, as the dissent points out, our interpretation of
§ 1252(a)(2)(B)(i) in no way restricts our jurisdiction to review the
legal and factual predicates for an alien’s removal. Dissenting Op.
at 82-83; see also § 1252(b)(9).

31a
to review final orders of removal; courts are precluded
only from reviewing the ultimate grant of discretionary
relief. Under his interpretation, “judgment” refers on­
ly to the agency’s exercise of “grace,” and no judgment
is exercised in determining whether an alien meets the
statutory eligibility requirements. Therefore, the ar­
gument goes, we are prohibited from reviewing the ul­
timate decision of who among eligible persons is grant­
ed relief but maintain jurisdiction to review whether an
alien meets threshold eligibility determinations. Both
interpretations lack a statutory basis and are circuitous
run-arounds on the judicial-review limitation.
1.
Under the Attorney General’s interpretation,
which the dissent adopts, some of the eligibility re­
quirements are discretionary and others are not. The
Attorney General’s delineation is flawed because de­
termining whether an alien is statutorily eligible for
relief is not a “discretionary” decision. All eligibility
determinations are “non-diseretionary.” As the Su­
preme Court has said, eligibility determinations are
“substantive decisions ... made by the Executive.”20
Kucana, 558 U.S. at 247, 130 S. Ct. at 837. Each enu­
merated section in § 1252(a)(2)(B)(l) sets forth specific
statutory requirements that must be met before any
act of grace can be bestowed upon the alien. For relief
under § 1129b(b), for example, an alien is eligible for
discretionary relief only if the alien has “(A) a continu­
ous physical presence of not less than 10 years, (B) good
moral character, (C) a lack of certain criminal convic­
tions, and (D) establishes exceptional and extremely
90

In removal proceedings, these decisions are made by an
immigration judge and subject to review by the BIA.

32a
unusual hardship to a qualifying relative.” For an ad­
justment of status under § 1255(i), such as the one that
Patel seeks, the Attorney General may adjust the sta­
tus of qualified aliens21 only if “(A) the alien is eligible
to receive an immigrant visa and is admissible to the
United States for permanent residence,” and “(B) an
immigrant visa is immediately available to the alien at
the time the application is filed.”
In assessing our jurisdictional boundaries, we—and
other Circuits—have often characterized these eligibil­
ity requirements as “discretionary” or “nondiscretion­
ary” determinations.22 For example, we have held that
the “exceptional and extremely unusual hardship” de­
termination is a discretionary decision, while the con­
tinuous physical presence requirement is a non­
discretionary determination. Najjar v. Ashcroft, 257
F.3d 1262, 1298 (11th Cir. 2001); see also GonzalezOropeza, 321 F.3d at 1332. In Najjar, we explained
that determining whether an alien met the presence
requirement was not an exercise in discretion but was
simply “a matter of applying the law to the facts of the
case.” 257 F.3d at 1298. Hardship, on the other hand,
was a “discretionary decision” because Congress had
delegated the authority to construe the meaning of that
21 See 8 U.S.C. § 12550X1).
22 See, e.g., Najjar v. Ashcroft, 257 F.3d 1262, 1298 (11th Cir.
2001); Gonzalez-Oropeza, 321 F.3d at 1332; Gomez-Gomez v. INS,
681 F.2d 1347, 1349 (11th Cir. 1982); Twum v. Barr, 930 F.3d 10,
19-20 (1st Cir. 2019); Barco-Sandoval v. Gonzales, 516 F.3d 35, 3940 (2d Cir. 2008); Mejia-Castanon v. Att’y Gen., 931 F.3d 224, 232
(3d Cir. 2019); Mireles-Valdez v. Ashcroft, 349 F.3d 213, 216 (5th
Cir. 2003); Romero-Torres v. Ashcroft, 327 F.3d 887, 890 (9th Cir.
2003); Sabido Valdivia v. Gonzales, 423 F.3d 1144, 1149 (10th Cir.
2005); Perales-Cumpean v. Gonzales, 429 F.3d 977, 982 (10th Cir.
2005).

33a
phrase to the Attorney General. Id. (citing Jong Ha
Wang, 450 U.S. at 145, 101 S. Ct. at 1031); see also
Gomez-Gomez, 681 F.2d at 1349.
This distinction between discretionary and non­
discretionary determinations arose from our interpre­
tation of the IIRIRA transitional rules, which barred
the appeal of “any discretionary decision” under five
enumerated sections of the INA. See Najjar, 257 F.3d
at 1298 (“Section 309(c)(4)(E) does not preclude our re­
view of all decisions under § 244 of the INA, but applies
only to ‘any discretionary decision’ under the enumer­
ated provisions.”). When the permanent rules went in­
to effect, we grafted the distinction onto the permanent
rules without considering the difference in statutory
language. Gonzalez-Oropeza, 321 F.3d at 1332 (apply­
ing the discretionary distinction from “1252(a)(2)(B)’s
predecessor”). Other lines of cases subsequently ad­
hered to this precedent without further consideration.23

23 See, e.g., Jimenez-Galicia v. U.S. Att’y Gen., 690 F.3d 1207,
1209 (11th Cir. 2012); Bedoya-Melendez v. U.S. Att’y Gen., 680
F.3d 1321, 1324 (11th Cir. 2012); Camacho-Salinas v. U.S. Att’y
Gen, 460 F.3d 1343,1347 (11th Cir. 2006).
We are not the only circuit to have erroneously relied on
precedent interpreting the transitional rules to demarcate our ju­
risdiction under the permanent rules. For example, in GarciaMelendez v. Ashcroft, 351 F.3d 657, 661 (5th Cir. 2003), the Fifth
Circuit cited Gonzalez-Torres v. INS, 213 F.3d 899, 901 (5th Cir.
2000), for its holding that the continuous presence requirement is a
factual determination subject to appellate review. GonzalezTorres of course interpreted the transitional rules, not the perma­
nent rules. 213 F.3d at 901. In Aburto-Rocha v. Mukasey, 535
F.3d 500, 502 (6th Cir. 2008), the Sixth Circuit quoted language
from Billeke-Tolosa v. Ashcroft, 385 F.3d 708, 711 (6th Cir. 2004),
for its conclusion that it could review non-discretionary decisions
underpinning discretionary relief.
Appellate jurisdiction in

34a
But the permanent rules do not include the “any
discretionary decision” language. Instead, the statute
bars review for “any judgment,” a broader term that
encompasses both discretionary and non-discretionary
determinations. It provides a blanket prohibition on
review of judgments relating to these five categories.
A change in statutory language generally connotes a
change in meaning to the statute. In re BFW Liquida­
tion, LLC, 899 F.3d 1178,1191 (11th Cir. 2018). There­
fore, “in the absence of any evidence to the contrary,
one can plausibly infer that, by replacing” any discre­
tionary decision “with new language that omits any
such requirement, Congress intended to eliminate [that
requirement], and to replace that requirement with
something substantively different.” Id.; see also Prado
v. Reno, 198 F.3d 286, 290-92 (1st Cir. 1999) (“[T]he
permanent rules remove more than ‘discretionary deci­
sions’ from review in the courts of appeals.”).
Clinging to the discretionary and non-discretionary
distinction flies in the face of the statutory language
specifically used by Congress. And it is a misnomer.
We have previously described “discretionary” decisions
as those that lack “an objective legal standard on which
a court can base its review.” Bedoya-Melendez, 680
F.3d at 1325. In Bedoya-Melendez, we contrasted a
question of law—which involves “the application of an
undisputed fact pattern to a legal standard”—to a dis­
cretionary decision, which “requires an adjudicator to
make a judgment call.” Id. at 1324. As a matter of ju­
risprudence, rather than of jurisdiction, we—as well as
the BIA—would be unable to review a judgment that
truly lacked any standards of review. Cf Heckler v.
Billeke-Tolosa was based on the transitional rules of the IIRIRA.
385 F.3d at 710.

35a
Chaney, 470 U.S. 821, 830, 105 S. Ct. 1649, 1655 (1985)
(“[E]ven where Congress has not affirmatively pre­
cluded review, review is not to be had if the statute is
drawn so that a court would have no meaningful stand­
ard against which to judge the agency’s exercise of dis­
cretion.”).
The threshold eligibility determinations, however,
are not discretionary decisions—immigration courts
cannot grant relief if they are not met. As the Supreme
Court has said, “[eligibility [for discretionary relief] is
governed by specific statutory standards which provide
a right to a ruling on an applicant’s eligibility.” Jay, 351
U.S. at 353, 76 S. Ct. at 924. Eligibility determina­
tions—both those that we have previously deemed
“discretionary” and those that we have deemed “non­
discretionary”—involve the same decisional process:
applying the law to a set of facts. And, “the application
of law will necessarily involve judgment.” Henry M.
Hart Jr. & Albert M. Sacks, Legal Process: Basic Prob­
lems in the Making and Application of Law 375 (1958).
If the statutory standards for eligibility are less specif­
ic, it gives an immigration judge more leeway in inter­
preting and applying the law. But qualitative stand­
ards such as “good moral character” or “exceptional
and extremely unusual hardship” are not in themselves
discretionary decisions. An immigration judge must
find that the alien meets such standards before she can
grant relief.24 Not only does the Attorney General’s
24 The dissent reads our analysis to say that judgment means
“findings of fact.” Dissenting Op. at 64. While we don’t dispute
that a factfinder may need to use judgment to assess witness cred­
ibility, weigh evidence, evaluate competing evidence, and draw
inferences, we read “judgment” to encompass eligibility determi­
nations rather than requiring appellate courts to assess whether a
particular finding reflects an exercise of “judgment” before a de-

36a
interpretation—allowing appellate review of factual de­
cisions underlying some statutory eligibility determina­
tions but not others—lack a statutory basis, it is also
illogical as a matter of policy. If Congress intended to
block our review of the ultimate decision to grant relief,
why would courts be entitled to assess the evidence for
the more objective eligibility requirements, such as res­
idency requirements, while being barred from weighing
the evidence for the qualitative requirements, such as
the character requirements?25 A more consistent readtermination of whether they have jurisdiction to review that find­
ing.
9S

The dissent answers our inquiry with the simple explana­
tion that there are questions about which the Attorney General
“simply might be wrong.” Dissenting Op. at 79. Perhaps in recog­
nition that the actual eligibility requirements under § 1255 and the
other enumerated categories of relief are not merely “straightfor­
ward” criteria, the dissent reaches for a hypothetical age require­
ment to contextualize how obvious some errors can be. Dissenting
Op. at 53. We are unpersuaded.
First, the hypothetical assumes that an immigration judge’s
factual findings are the end of the story. Before an applicant can
petition this Court for review, however, he must appeal to the
BIA, which reviews the immigration judge’s factual findings for
clear error. 8 C.F.R. § 1003.1(d)(3). For example, in Patel’s ap­
peal, the BIA identified the three factors upon which the Immigra­
tion Judge concluded that Patel’s testimony was not credible and
found no clear error. The BIA’s review should correct obvious
errors. See, e.g., In Re B-, 21 I. & N. Dec. 66, 71 (BIA 1995) (de­
clining to accept the immigration judge’s adverse credibility find­
ing). Furthermore, erroneous factual findings are subject to cor­
rection via a motion to reconsider. See 8 C.F.R. § 1003.2(b)(1).
Second, to the extent that an immigration judge’s factual con­
clusions reflect a lack of “reasoned consideration” (or lack any rea­
soning, as in the hypothetical), those rulings are subject to legal
and constitutional challenges. See Indrawati v. U.S. Att’y Gen.,
779 F.3d 1284,1302-03 (11th Cir. 2015); Tan v. U.S. Att’y Gen., 446
F.3d 1369 (11th Cir. 2006).

37a
ing of “judgment” is that, under § 1252(a)(2)(B)(i), all
eligibility determinations for the five enumerated cate­
gories of discretionary relief are barred from review.
Finally, § 1252(a)(2)(B) must be read in conjunction
with § 1252(a)(2)(D). See Guerrero-Lasprilla, 140 S. Ct.
at 1073. Rather than engaging in mental gymnastics to
determine if a particular decision is “discretionary or
not” and then determining whether the alien’s claim
presents a question of law or a constitutional challenge,
the logical interpretation of the statutory scheme is
that “judgment” encompasses all decisions made by the
BIA and that we are foreclosed from reviewing those
determinations unless the alien presents a legal or con­
stitutional challenge. We thus lack jurisdiction to re­
view factual challenges to a denial of discretionary re­
lief.26 Nasrallak, 140 S. Ct. at 1694; GuerreroFinally, it is still unclear why we can review the BIA’s erro­
neous determination of age for the hypothetical age requirement,
but lack jurisdiction to review the same factual finding when it
relates to the “extreme hardship” or “good moral character” re­
quirement.
26 The dissent highlights one potential quirk of our interpre­
tation—that we retain jurisdiction to review factual determina­
tions when made in the removability context but lack jurisdiction
to review the same facts when made in the discretionary relief
context. Dissenting Op. at 82-83. This difference arises not be­
cause of our interpretation of “judgment,” but is due to the very
nature of discretionary relief. A charge of removal is a separate
determination from a finding of ineligibility for discretionary relief.
For example, the due process considerations at the two stag­
es differ. See MatovsJci v. Gonzales, 492 F.3d 722, 738 (6th Cir.
2007). The government bears the burden of proving removability
by clear and convincing evidence, while the applicant bears the
burden of establishing admissibility clearly and beyond doubt. Id.
The government must inform the alien of the specific allegations
which would justify removal but need not list all grounds for inad­
missibility in the notice to appear. See Aalund v. Marshall, 461

38a
Lasprilla, 140 S. Ct. at 1073 (“The Limited Review
Provision, however, will still forbid appeals of factual
determinations—an important category in the removal
context”)The two pathways—that judgments are barred
from review, except to the extent they raise a constitu­
tional or legal claim, and that discretionary decisions
are barred from review—may often reach the same re­
sult. As the Second Circuit pointed out in Rosario v.
Holder, 627 F.3d 58, 61 (2d Cir. 2010), the “two charac­
terizations” are “congruent: BIA statutory interpreta­
tion pursuant to an eligibility determination is nondis­
cretionary and therefore reviewable precisely because
it presents a legal question. In contrast, the BIA’s fact­
finding, factor-balancing, and exercise of discretion
normally do not involve legal or constitutional ques­
tions, so we lack jurisdiction to review them.” See also
Jean, 435 F.3d at 480 (concluding that the Court need
not consider “the scope of subsection (a)(2)(B)” in light
of the enactment of subsection (D) by the REAL ID
Act); Reyes v. Holder, 410 F. App’x 935, 939 (6th Cir.
F.2d 710, 712 (5th Cir. 1972); Salmejo-Femandez v. Gonzales, 455
F.3d 1063,1066 (9th Cir. 2006). Aliens are entitled to effective as­
sistance of counsel during the removal proceeding yet lack the
same constitutional protection when seeking discretionary relief.
Mejia Rodriguez v. Reno, 178 F.3d 1139, 1146 (11th Cir. 1999).
Applicants cannot mount substantive due process challenges to
eligibility considerations for discretionary relief because, we have
held, they lack the requisite liberty interest. Mohammed
v. Ashcroft, 261 F.3d 1244,1250-51 (11th Cir. 2001).
Given that these differences follow from the government’s
charging decisions, it is not surprising that our jurisdiction to re­
view the two determinations may also differ. Congress explicitly
limited our jurisdiction to review “any judgment regarding the
granting of relief under” § 1255 and included among those judg­
ments are factual determinations regarding inadmissibility.

39a
2011) (“[I]t remains unclear whether the two categories
... overlap entirely or almost entirely.”).
Regardless of how we have characterized eligibility
determinations in the past, they are threshold require­
ments.27 The Attorney General and immigration judg­
es have no discretion to grant relief unless the statuto­
ry criteria are met.
2.

Relying on the Ninth Circuit’s en banc opinion in
Montero-Martinez v. Ashcroft, 277 F.3d 1137,1142 (9th
Cir. 2002), Patel argues that “[t]he only judgment exer­
cised regarding the order or decision lies in the Attor­
ney General’s discretionary authority to determine who
among the eligible persons should be granted discre­
tionary relief.” Because “(n]o judgment is exercised
with respect to the mere eligibility for discretionary
relief,” he asserts that § 1252(a)(2)(B)(i) does not bar
review of whether an alien meets the statutory criteria
for relief. Id.
The Ninth Circuit held that it had jurisdiction to
consider whether Montero-Martinez’s adult daughter

27 By treating all eligibility decisions as non-discretionary, we
eliminate the case-by-case determination of whether an eligibility
decision is discretionary or non-discretionary and bring stability to
the law. See, e.g., Jimenez-Galicia, 690 F.3d at 1210 (“The other
circuits that have examined ... whether the catchall provision [for
good moral character] is discretionary have not come to a uniform
result.”); Twum, 930 F.3d at 19 (explaining the juxtaposition of
conflicting case precedent about whether particular eligibility de­
terminations provide objective criteria); Wilmore v. Gonzales, 455
F.3d 524, 527 (5th Cir. 2006) (noting the split between the Ninth
and Tenth Circuits on whether the determination of “extreme cru­
elty” is discretionary).

40a
qualifies as a “child” under 8 U.S.C. § 1229b(b)(l)(D)28
because this “purely legal and hence non-discretionary
question” is not a “judgment regarding the granting of
relief.” Id. at 1140-41 (emphasis added). The Ninth
Circuit based its interpretation on three arguments.
First, the Court looked to the way the term “judgment”
was used throughout the INA. Second, the Court con­
sidered the structure of § 1252(a)(2)(B). Third, the
Court compared the jurisdiction-stripping language in
§ 1252(a)(2)(B)(i) with other provisions that limit judi­
cial review. The Court concluded that, based on these
factors as well as the background principle of narrowly
construing restrictions on jurisdiction, § 1252(a)(2)(B)(i)
did not unambiguously bar review over “all decisions
by the BIA regarding discretionary relief.” Id. at 1144.
Instead § 1252(a)(2)(B)(i) “eliminates jurisdiction only
over decisions by the BIA that involve the exercise of
discretion.” Id.
We disagree. While a discretionary decision, such
as the “grace” of ultimately granting relief, necessarily
involves the exercise of judgment, the meaning of
judgment does not end there. Compare Black’s Law
Dictionary (defining “administrative discretion” as “[a]
public official’s or agency’s power to exercise judgment
in the discharge of its duties” and “judicial discretion”
as “[t]he exercise of judgment by a judge or court
based on what is fair under the circumstances and
guided by the rules and principles of law”), with Judg­
ment, Black’s Law Dictionary (6th ed. 1990) (“Determi9R

For cancellation of removal under § 1229b(b), an alien must,
inter alia, establish that “removal would result in exceptional and
extremely unusual hardship to the alien’s spouse, parent, or child,
who is a citizen of the United States or an alien lawfully admitted
for permanent residence.” 8 U.S.C. § 1229b(b)(l)(D).

41a
nation of a court of competent jurisdiction upon matters
submitted to it.”)- The Ninth Circuit so narrowly con­
strued the word “judgment” that it contorted its mean­
ing.29
As the dictionary definitions above indicate,
“judgment” is a broad term, encompassing both the
process of forming an opinion as well the pronounce­
ment of the result. That process includes both legal and
factual determinations and is not arbitrarily limited to
decisions involving the exercise of discretion. As the
panel
in
Montero-Martinez
initially
held,
“§ 1252(a)(2)(B)(i), by its plain terms, appears to en­
compass all decisions regarding cancellation of removal,
including determinations of statutory eligibility.” 249
F.3d 1156, 1158 (9th Cir.), as amended (May 30, 2001),
rev’d, 277 F.3d at 1137.
After the Supreme Court decided St. Cyr, the
Ninth Circuit granted Montero-Martinez’s petition for
rehearing en banc, 277 F.3d at 1137, and then re­
interpreted the meaning of “judgment” to conform the
statutory language to what it thought St. Cyr re­
quired.30 Mysteriously, the Ninth Circuit’s en banc
29 The Ninth Circuit referenced a dictionary for its footnote
that other common definitions of “judgment” include “a formal ut­
terance of an authoritative opinion” or the “process of forming an
opinion or evaluation,” but it did not cite a dictionary or other
common-meaning source for its conclusion that “judgment” means
either “any decision” or “any decision involving the exercise of dis­
cretion.” Montero-Martinez, 277 F.3d at 1141 & n.4.
30 The Ninth Circuit is not alone in re-interpreting the mean­
ing of “judgment” after acknowledging that its plain meaning bars
review of all decisions. Compare Morales Ventura v. Ashcroft, 348
F.3d 1259, 1262 (10th Cir. 2003) (“On its face, [8 U.S.C.
§ 1252(a)(2)(B)(i)] seems to foreclose judicial review completely.”),
with Sabido Valdivia v. Gonzales, 423 F.3d 1144, 1148 (10th Cir.

42a
opinion never addresses the common meaning of judg­
ment. And St. Cyr merely acknowledged that some
form of judicial review for questions of law needed to
be preserved—such as via the writ of habeas corpus—
not that “judgment” can only mean decisions involving
the exercise of discretion. With the enactment of the
Real ID Act of 2005, Congress embedded these protec­
tions in § 1252(a)(2)(D), which preserves appellate re­
view of “purely legal” questions, such as whether an
adult daughter qualifies as a child.
We are unpersuaded by the Ninth Circuit’s other
arguments. By the Court’s own reasoning, it is impos­
sible to give the word “judgment” the same meaning
throughout the INA. Montero-Martinez, 277 F.3d at
1141. Sometimes, when preceded by the modifier “dis­
cretionary,” it means “discretionary judgment.” Id. n.5;
see also 8 U.S.C. § 1226(e); 8 U.S.C. 1252(b)(4)(D). Oth­
er times, when preceded by “formal” or when the pro­
vision includes the word “final,” judgment refers to a
final judgment.
See 8 U.S.C. § 1101(a)(48)(A);
§ 1158(b)(2)(A)(ii); § 1227(a)(2)(D); § 1229a(c)(3)(B)(i);
§ 1324b(i)(2); § 1375c(a)(3). Because, “[a] given term in
the same statute may take on distinct characters from
2005) (adopting the Ninth Circuit’s analysis in Montero-Martinez)-,
Mancha-Chairez v. Reno, 224 F.3d 766 (5th Cir. 2000) “[8 U.S.C.
§ 1252(a)(2)(B)(i)] forestalls any judicial review of Board judg­
ments, regardless of the conclusion reached.”), with MirelesValdez v. Ashcroft, 349 F.3d 213, 216 (5th Cir. 2003) (“[8 U.S.C.
§ 1252(a)(2)(B)(i)’s) ban on review of “judgment[s] regarding the
granting of relief’ precludes review only of discretionary deci­
sions.” (emphasis in original)), and Prado, 198 F.3d at 290 (“[T]he
permanent rules remove more than ‘discretionary decisions’ from
review in the courts of appeals.”), with Mele v. Lynch, 798 F.3d 30,
32 (1st Cir. 2015) (“[W]e lack jurisdiction to review the purely dis­
cretionary decisions made under the other statutory sections iden­
tified in § 1252(a)(2)(B)(i).”).

43a
association with distinct statutory objects calling for
different implementation strategies,” Envtl. Def. v.
Duke Energy Corp., 549 U.S. 561, 574, 127 S. Ct. 1423,
1432 (2007), the use of the term in other parts of the
statute
says
little
about its meaning in
§ 1252(a)(2)(B)(i).
Our interpretation of “judgment” also does not
make the “any other decision” language in
§ 1252(a)(2)(B)(ii) superfluous. See Montero-Martinez,
277 F.3d at 1142. Section 1252(a)(2)(B) limits our re­
view of discretionary relief. Section 1252(a)(2)(B)(i)
enumerates five types of relief. See Kucana, 558 U.S.
at 246-47, 130 S. Ct. at 836. But those five categories
aren’t the only provisions in the INA that allow for dis­
cretionary action. Id. at 248, 130 S. Ct. at 837 (citing
§ 1157(c)(1); § 1181(b), & § 1182(a)(3)(D)(iv) as exam­
ples). Section 1252(a)(2)(B)(ii) is therefore a “catchall
provision” to preclude our review of those other cate­
gories of discretionary relief. Id. at 247, 130 S. Ct. at
836.
The dissent expounds on this structure argument,
pointing to the Supreme Court’s decision in Kucana for
additional support. Dissenting Op. at 69-70. In Kuca­
na, the Supreme Court looked to the structure of
§ 1252(a)(2)(B) to support its holding that the “any oth­
er decision” language in § 1252(a)(2)(B)(ii) refers to de­
cisions “made discretionary by legislation” rather than
by regulation. Id. at 248, 130 S. Ct. at 837. Therefore,
the dissent reasons, § 1252(a)(2)(B)(i) must also apply
only to discretionary decisions. Dissenting Op. at 69-70.
That is a faulty conclusion. As we explained above,
eligibility determinations are not discretionary. While
the ultimate decision of whether to grant of relief is
discretionary; eligibility for the relief is not. Kucana

44a
read “other” to align with the five types of relief enu­
merated in § 1252(a)(B)(ii). See id. at 247-48,130 S. Ct.
at 836-37. It said nothing about how to interpret the
meaning of “judgment[s] regarding the granting of
[that] relief.”
Furthermore, our interpretation is the only one
that appropriately reads § 1252(a)(2)(B)(i) & (ii) harmo­
niously. If, as Patel contends, “judgment” is limited to
the ultimate grant of grace, there is little need for
§ 1252(a)(2)(B)(i) because our review of that final deci­
sion is already circumscribed by § 1252(a)(2)(B)(ii). Id.
at 246-47,130 S. Ct. at 836 & n. 13. If eligibility criteria
are deemed discretionary because Congress “itself set
out the Attorney General’s discretionary authority in
the statute,” those determinations would be barred
from review by § 1252(a)(2)(B)(ii), not by
§ 1252(a)(2)(B)(i). Id. at 247, 130 S. Ct. at 837. And if,
as the dissent reasons, eligibility criteria are deemed
discretionary for some other reason, then Kucana pro­
vides no guidance because its holding was based on
what Congress “made discretionary by legislation.” Id.
at 246-47, 130 S. Ct. at 836. Accordingly, we do not
read “any other decision” to import a discretionary
gloss on “any judgment.”
Finally, the use of the words “decision” or “individ­
ual determination” in other judicial-stripping provisions
in the IN A does not convince us that “judgment” in
§ 1252(a)(2)(B)(i) is arbitrarily limited to decisions in­
volving discretion. Such a cursory comparison over­
looks the words “any” and “regarding” in
§ 1252(a)(2)(B)(i). If Congress intended to prohibit our
review of only the ultimate determination of relief, it
merely needed to say that “[n]o court shall have juris­
diction” to review “the ultimate judgment granting re-

45a
lief’ under the enumerated provisions, rather than
stripping our jurisdiction to review “whatever kind” of
judgments that “relate to the subject.” See Babb, 140
S. Ct. 1173 n.3; Appling, 138 S. Ct. at 1760. And, as we
have said before, “whatever kind” of judgments that
“relate to the subject” include even the most objective
seeming eligibility requirements.
Patel’s interpretation—that § 1252(a)(2)(B) bars
review only of the final grant or denial of relief—
renders our jurisdictional limits meaningless. Enabling
review of each individual determination underpinning
the final decision effectively allows for review of the
grant of relief. See Lee v. U.S. Citizenship & Immigra­
tion Sews., 592 F.3d 612, 620 (4th Cir. 2010) (finding
that eligibility determinations cannot be divorced from
the denial of discretionary relief). We cannot accept
such a run-around of our limitations.
Because § 1252(a)(2)(B)(i) contains no modifying
phrases that would indicate that “judgment” refers ex­
clusively to a discretionary decision, we hold that we
are precluded from reviewing any judgment relating to
Patel’s request for relief, except to the extent that he
raises a constitutional claim or a question of law.
III.
On appeal, Patel does not assert any constitutional
claims regarding the denial of relief under § 1255. He
claims that the BIA erred in its determination that he
lacked the requisite subjective intent to misrepresent
his citizenship status. Such a challenge presents a fac-

46a
tual question. We lack jurisdiction to such a claim un­
der § 1252(a)(2)(B)(i).31

31 The dissent interprets § 1252(a)(2)(B)(i) to allow judicial
review of this question, but fails to explain why a finding that Pa­
tel’s false claim of citizenship was made with subjective intent is a
“non-discretionary” finding subject to judicial review. In the dis­
sent’s view, Patel is either admissible or he is not; “[n]o discretion
is required to make these decisions.” Dissenting Op. at 74. That is
an overly simplistic way of looking at the inadmissibility criteria in
8 U.S.C. § 1182(a).
For one, some of the inadmissibility criteria are statutorily
specified to be in the discretion of the Attorney General. See, e.g.,
§ 1182(a)(3)(D)(iv) (discretionary waiver for applicants who have
affiliated with a totalitarian party). Other criteria include statuto­
ry definitions to minimize discretion. See, e.g., § 1182(a)(3)(B)(iii) &
(iv) (defining “terrorist activity” and “engage in terrorist activi­
ty”). Others list regulations or statutes that should guide the At­
torney General’s opinion. See, e.g., § 1182(a)(l)(A)(i) & (iii) (deter­
minations of inadmissibility based on certain health-related
grounds should be made “in accordance with regulations pre­
scribed by the Secretary of Health and Human Services”);
§ 1182(a)(4)(A) & (B) (listing factors to consider in the determina­
tion of whether an applicant is “likely at any time to become a pub­
lic charge”). And, still others clearly require the Attorney General
“to use judgment to place someone in a subjective category that
lacks clear, self-explanatory boundaries.” Dissenting Op. at 78.
For example, a determination that an applicant “seeks to enter the
United States to engage solely, principally, or incidentally in” “any
activity a purpose of which is the opposition to ... the Government
of the United States” is hardly self-explanatory or easily verified
as correct or incorrect. See § 1182(a)(3)(A)(iii). The same goes for
the provision on which Patel was found inadmissible. See
§ 1182(a)(6)(C)(ii)(I). To complicate the inquiry further, the Attor­
ney General has discretion to grant inadmissibility waivers, includ­
ing for the ground on which Patel was found inadmissible. See,
e.g., § 1182(g) (waiver for health-related grounds); § 1182(h) (waiv­
er for marijuana offenses); § 1182(i) (waiver for fraud or misrepre­
sentation grounds).

47a
Patel also claims that the BIA used the wrong legal
standard to determine that he is ineligible for relief.
The Panel appropriately retained jurisdiction to con­
sider that claim. We need not disturb the panel’s ruling
that the statute lacks a materiality element. See Patel
v. U.S. Att’y Gen., 917 F.3d 1319,1322 (11th Cir. 2019).
SO ORDERED.

The dissent’s interpretation assumes that an inadmissibility
determination is one straightforward, non-discretionary decision.
In reality, that eligibility determination is the culmination of a va­
riety of judgments.

48a
MARTIN, Circuit Judge, joined by WILSON, JOR­
DAN, ROSENBAUM, and JILL PRYOR, Circuit
Judges, dissenting:
Pankajkumar Patel applied to immigration authori­
ties to adjust his immigration status so that he could
continue living in the United States. His application for
adjustment of his status was denied, and Mr. Patel then
turned to this Court to review that denial of relief.
Originally, a three-judge panel of this Court affirmed
the ruling of the Board of Immigration Appeals (“BIA”)
and also affirmed the final order directing his removal
from this country. Our en banc Court then vacated that
panel opinion and reheard Mr. Patel’s petition so the
whole court could decide the proper scope of 8 U.S.C.
§ 1252(a)(2)(B)(i), a jurisdiction-stripping provision of
the Immigration and Nationality Act (“INA”). Today
the majority of the judges on this Court rule that a
“straightforward reading” of § 1252(a)(2)(B)(i) tells us
we lack jurisdiction to review any element of Mr. Pa­
tel’s petition other than constitutional questions or er­
rors of law. Maj. Op. at 25.
My reading of the statute leads me to a different
understanding. The majority opinion analyzes the
statute extensively. But it pays scant attention to the
two foundational canons of statutory construction that
must guide our interpretation of jurisdictional re­
strictions placed on us by the INA. First, there is a
longstanding presumption in favor of judicial review of
administrative actions. Time and again, the Supreme
Court has told us that when a jurisdiction-stripping
provision “is reasonably susceptible to divergent inter­
pretation, we adopt the reading that accords with tradi­
tional understandings and basic principles: that execu­
tive determinations generally are subject to judicial re­
view.” Guerrero-Lasprilla v. Barr, 589 U.S.__ , 140 S.

49a
Ct. 1062, 1069 (2020) (quoting Kucana v. Holder, 558
U.S. 233, 251, 130 S. Ct. 827, 839 (2010)). And the sec­
ond tenet neglected by the majority is the “longstand­
ing principle of construing any lingering ambiguities in
deportation statutes in favor of the alien.”1 INS v.
Cardoza-Fonseca, 480 U.S. 421, 449, 107 S. Ct. 1207,
1222 (1987). The majority’s failure to employ these
canons of statutory construction gives us an interpreta­
tion of the statute that vests immigration officials with
the ability to insulate immigration court rulings from
judicial review based solely on their own charging deci­
sions. The Supreme Court has warned against such an
“extraordinary delegation of authority.” Kucana, 558
U.S. at 252,130 S. Ct. at 840.
Once the proper canons of construction are applied,
§ 1252(a)(2)(B)(i) cannot properly be read to strip this
Court of jurisdiction to review a finding of fact that is
contradicted by the record. Rather, the statute more
naturally allows our Court to review findings of fact
that are mistaken. And that review properly extends
even to eligibility determinations made by an Immigra­
tion Judge (“IJ”), where those determinations are
based on facts belied by the record. This is so because,
among other reasons, factual findings related to a per­
son’s eligibility for discretionary relief are generally
not discretionary, and § 1252(a)(2)(B)(i) strips our ju­
risdiction to review only discretionary determinations.
For example, assume the immigration statute says only
people over the age of 40 years are eligible to remain in
i «

Alien” is not my preferred term, but it is the word used in
the statute. I use it here when quoting the agency decision or the
text of the INA, but otherwise have adopted the term “noncitizen”
as equivalent to the statutory term. See Barton v. Barr, 590 U.S.
__ , 140 S. Ct. 1442,1446 n.2 (2020).

50a
the country. The record contains much evidence of the
applicant’s actual age of 50 years, including her birth
certificate and even photographs from her 40th birth­
day party, showing that it took place ten years ago.
The IJ nevertheless finds that the applicant is only 30
years old, and rules as a result that the applicant is not
eligible for discretionary relief. The applicant then
comes to our Court to point us to the substantial evi­
dence of her actual age of 50 years. I say our Court is
empowered to review this obviously mistaken finding
of fact that was the basis for denial of discretionary re­
lief. It is also true, of course, that if the IJ had got the
50-year age right, and then the applicant was denied
discretionary relief, our Court would have no jurisdic­
tion to review the ultimate denial of relief.
Nearly every one of our sister circuits have adopt­
ed the reading of the jurisdiction stripping provisions
that would allow courts to reverse findings of fact con­
tradicted by the record. Under this widely accepted
reading of § 1252(a)(2)(B)(i), our Court is entitled to re­
view mistakes made by the IJ about the cold hard facts
of Mr. Patel’s eligibility for adjustment of status. And
this review can extend to the immigration judge’s cred­
ibility finding when that finding is based on facts plain­
ly contradicted by the record. Since I believe the ma­
jority opinion misreads § 1252(a)(2)(B)(i), I respectfully
.. dissent.
I.
The majority has ably described the history of Mr.
Patel’s appeal, so I review it only briefly here. The De­
partment of Homeland Security (“DHS”) served Mr.
Patel a notice to appear (“NTA”) in April 2012 that
charged him as being removable because he is an “al­
ien” present in the United States without being admit-

51a
ted or paroled, pursuant to 8 U.S.C. § 1182(a)(6)(A)(i).
The NTA did not charge Mr. Patel with being inadmis­
sible. Mr. Patel conceded he was removable and ap­
plied for adjustment of status under 8 U.S.C. § 1255(i),
based on an approved employment-related visa petition
filed on his behalf. Mr. Patel’s wife, Jyotsnaben, and
one of his sons, Nishantkumar, also applied for deriva­
tive status based on Mr. Patel’s application for adjust­
ment. On May 9, 2013, the IJ found that Mr. Patel was
not eligible for adjustment of status because, during his
time living in the United States, he once falsely claimed
United States citizenship. The IJ said this rendered
Mr.
Patel
inadmissible
under
8
U.S.C.
§ 1182(a)(6)(c)(ii)(I) and therefore not eligible for dis­
cretionary relief.
Mr. Patel appealed to the BIA. In a divided deci­
sion, the BIA affirmed the IJ’s factual findings that Mr.
Patel was not a credible witness and had falsely repre­
sented himself to be a U.S. citizen for purposes of ob­
taining a noncommercial Georgia driver’s license. The
BIA found no clear error in the IJ’s rejection of Mr. Pa­
tel’s argument that he “made a mistake” in checking a
box on a form, indicating that he was a U.S. citizen.
Board Member Wendtland dissented, noting that Mr.
Patel was not inadmissible under Matter of Richmond,
26 I & N Dec. 779 (BIA 2016), since under Georgia law
he was eligible to receive a driver’s license whether or
not he was a U.S. citizen. Thus, according to Board
Member Wendtland, Mr. Patel’s answer to the citizen­
ship question was immaterial to the issuance of his li­
cense.
Mr. Patel asked our Court to review the BIA’s re­
jection of his claim. What matters for this discussion is
Mr. Patel’s argument that, since he did not intend to
check the U.S. citizenship box on the driver’s license

52a
application form, he lacked the requisite subjective in­
tent to be found inadmissible on the ground that he
made a false claim of U.S. citizenship. See Patel v. U.S.
Att’y Gen., 917 F.3d 1319, 1326 (11th Cir. 2019). As
mentioned above, the panel that originally heard Mr.
Patel’s case affirmed the BIA ruling against him. The
panel concluded that it lacked jurisdiction to review
any factual findings about Mr. Patel’s intent that were
made in support of the denial of adjustment of status,
including the IJ’s finding that Mr. Patel’s false claim
was made with subjective intent. Id. at 1327.
On September 13, 2019, a majority of this Court’s
active judges voted to rehear Mr. Patel’s petition en
banc and vacated the panel opinion. We asked the par­
ties to brief the question of whether Mr. Patel’s subjec­
tive intent to obtain a purpose or benefit was a “non­
discretionary finding pertaining to statutory eligibility
for immigration rehef ’ and whether we had jurisdiction
to review that finding.
II.
Before I address the text of § 1252(a)(2)(B)(i), I
first review the statutory framework and interpretive
canons that must guide our analysis. Remarkably, the
majority mentions these principles only in passing. See
Maj. Op. at 31-32. But they are foundational and com­
pel a different conclusion than that reached by the ma­
jority.
First, the default rule of the IN A is that the agen­
cy’s legal holdings and factual findings are subject to
judicial review. 8 U.S.C. § 1252(b)(2) and (9) tell us that
appeals from the findings of immigration judges will be
channeled through petitions for review to the federal
courts of appeals, which have jurisdiction to review “all

53a
questions of law and fact ... arising from any action
taken or proceeding brought to remove an alien from
the United States.”
True, other sections of § 1252 limit this general
grant of jurisdiction. But in applying those limits, we
must follow two familiar canons of statutory interpreta­
tion. As for the first, the Supreme Court again recently
reminded us that there is a “well-settled” and “strong
presumption” favoring judicial review of administrative
actions. Guerrero-Lasprilla, 140 S. Ct. at 1069 (quoting
McNary v. Haitian Refugee Ctr., Inc., 498 U.S. 479,
496, 498, 111 S. Ct. 888, 898, 899 (1991)). The Court has
“consistently applied” the presumption of reviewability
when it interprets immigration statutes. Id. (quoting
Kucana, 558 U.S. at 251,130 S. Ct. at 839); see also INS
v. St. Cyr, 533 U.S. 289, 298, 121 S. Ct. 2271, 2278
(2001). It has told us there is a “heavy burden” for dis­
lodging the presumption in favor of judicial review,
Bowen v. Mich. Acad, of Family Physicians, 476 U.S.
667, 672, 106 S. Ct. 2133, 2136 (1986), and this burden
requires “clear and convincing evidence” that Congress
intended to preclude review. Reno v. Catholic Soc.
Sews., Inc., 509 U.S. 43, 64,113 S. Ct. 2485,2499 (1993).
For these reasons, when a statute is reasonably suscep­
tible to different interpretations, we must adopt the in­
terpretation permitting federal court review. Kucana,
558 U.S. at 251,130 S. Ct. at 839.2

2 The majority suggests that, because its interpretation pre­
serves review of “questions of law” under § 1252(a)(2)(D), it does
not run afoul of this principle. Maj. Op. at 31-32. That is a non sequitur. The presumption of judicial review is not a jurisdictional
floor. It is a rule of statutory interpretation that guides our read­
ing of any statute limiting federal court jurisdiction to review ad­
ministrative action, including by limiting our review of non-

54a
The presumption of judicial review is further but­
tressed by the “longstanding principle of construing
any lingering ambiguities in deportation statutes in fa­
vor of the alien.” Cardoza-Fonseca, 480 U.S. at 449,
107 S. Ct. at 1222. We use this rule of construction be­
cause, as the Supreme Court has explained, “deporta­
tion is a drastic measure and at times the equivalent of
banishment or exile.” INS v. Errico, 385 U.S. 214, 225,
87 S. Ct. 473,480 (1966) (quotation marks omitted). Be­
cause “the stakes are considerable for the individual,
we will not assume that Congress meant to trench on
his freedom[] beyond that which is required by the nar­
rowest of several possible meanings of the words used.”
Id. (quotation marks omitted).
. Ignoring the guideposts of the strong presumption
of judicial review and the narrow interpretation of de­
portation statutes, the majority sets off on the wrong
path entirely. Since we are not legislators writing laws
discretionary factual determinations. See Kucana, 558 U.S. at 251,
130 S. Ct. at 839.
St. Cyr does not support the majority’s reasoning. In St. Cyr,
the Supreme Court considered whether portions of the Antiterror­
ism and Effective Death Penalty Act of 1996 and the Illegal Immi­
gration Reform and Immigrant Responsibility Act of 1996 (“IIRIRA”) “stripped the courts of jurisdiction to decide the question of
law presented by respondent’s habeas corpus application.” St.
Cyr, 533 U.S. at 298,121 S. Ct. at 2278. Applying the canons favor­
ing judicial review and constitutional avoidance, it concluded that
the disputed statutes did not withdraw the power of federal courts
to review such questions. Id. at 305, 121 S. Ct. at 2282. Whether
those statutes withdrew jurisdiction to review findings of fact was
not before the Court. Thus, it is unsurprising the Court preserved
only the authority to review questions of law. Nothing in St. Cyr,
or any other decision I am aware of, implies that preserving re­
view of questions of law independently satisfies the presumption of
judicial review of agency action.

55a
to enforce our own views, our job in interpreting the
jurisdiction-stripping provisions of the INA is to de­
termine the degree to which Congress clearly intended
to remove this Court’s ability to review executive ac­
tion. In fact, “[s]eparation-of-powers concerns ... cau­
tion us against reading legislation, absent clear state­
ment, to place in executive hands authority to remove
cases from the Judiciary’s domain.” Kucana, 558 U.S.
at 237, 130 S. Ct. at 831. The following discussion
demonstrates ambiguity within the text of
§ 1252(a)(2)(B). I believe my narrower reading of the
statute (allowing more judicial review) resolves this
ambiguity better than the broad interpretation (allow­
ing much less judicial review) given it by the majority.
I do not say that my narrow reading is the only possible
one. But it is certainly a natural and available interpre­
tation. Thus, absent clear evidence to the contrary, and
with the presumption in favor of judicial review as well
as the presumed narrow reading of removal statutes, it
is the interpretation we must adopt. With this in mind,
I turn to the text of the statute.
III.
Section 1252(a)(2)(B) is titled “Denials of discre­
tionary relief.” It has two subsections. Subsection (i)
strips courts of jurisdiction to review “any judgment
regarding the granting of relief’ under §§ 1182(h),
1182(i), 1229b, 1229c, or 1255. Each of those five enu­
merated sections of the INA describes a form of relief
that may only be granted in the discretion of the Attor­
ney General.3 Subsection (ii) strips jurisdiction to re3

See 8 U.S.C. § 1182(h) (“The Attorney General may, in his
discretion, waive the application of subparagraphs ... [of this sec­
tion].”); § 1182(i)(l) (“The Attorney General may, in the discretion
of the Attorney General, waive the application of clause (i) of sub-

56a
view “any other decision or action ... the authority for
which is specified under this subchapter to be in the
discretion of the Attorney General or the Secretary of
Homeland Security.” Thus, I read § 1252(a)(2)(B) to
say that subsection (i) strips courts of jurisdiction to
review only discretionary decisions related to eligibility
and the granting of relief under any of the five statutes
listed there. Then, subsection (ii) strips courts of juris­
diction to review any other decisions that are explicitly
specified to be “discretionary” in the INA. 4
No one disputes that § 1252(a)(2)(B) removes our
jurisdiction to review the ultimate discretionary deci­
sion of the Attorney General about whether to grant
the five forms of relief enumerated in subsection (i).
But the majority reads the statute to do much more
than that. There are often many factual and legal ques­
tions that must be decided in determining whether a
person is even eligible for discretionary relief. And the
majority opinion says § 1252(a)(2)(B) leaves us no juris­
diction to review any of those factual findings made by
immigration judges in deciding this eligibility question.
See Maj. Op. at 24-25. Under the majority’s interpreta­
tion, our Court has jurisdiction to review only legal and
constitutional questions under the jurisdiction­
restoring provisions of § 1252(a)(2)(D).
section (a)(6)(C) [of this section].”); § 1229b(b)(l) (“The Attorney
General may cancel removal ....”); § 1229c(a)(l) (“The Attorney
General may permit an alien voluntarily to depart the United
States ....”); § 1255(a) (“The status of an alien ... may be adjusted
by the Attorney General, in his discretion, and under such regula­
tions as he may prescribe, to that of an alien lawfully admitted for
permanent residence ....”).
4 Subsection (ii) does not apply Mr. Patel’s petition for review
and its meaning is not in dispute here.

57a
But the statute does not require such a diminished
role for federal courts. First, when the statute removes
our jurisdiction to review “any judgment regarding the
granting of relief,” the word “judgment” refers to exer­
cises of judgment. It does not naturally include find­
ings of fact. The INA simply does not use the word
“judgment” to convey all the meanings given it in the
majority opinion. Second, the adjacent statutory text
supports involvement of the courts in some of the fact­
finding related to eligibility determinations. It shows
that where Congress intended to eliminate all review
other than legal and constitutional error, it knew how
to do so. And reading “judgment” to so broadly inhibit
judicial review, as the majority does here, renders su­
perfluous other adjacent statutory language. Third, the
structure of the INA and of removal proceedings weigh
heavily against interpreting § 1252(a)(2)(B) as eliminat­
ing all jurisdiction of this Court to review basic findings
of fact. Perhaps it is these reasons that have led all but
one of our sister circuits who have considered this issue
to conclude that § 1252(a)(2)(B) does not eliminate re­
view of factual or legal determinations related to eligi­
bility for discretionary relief. See Singh v. Gonzales,
413 F.3d 156, 160 n.4 (1st Cir. 2005); Rodriguez v. Gon­
zales, 451 F.3d 60, 62 (2d Cir. 2006) (per curiam); Mendez-Moranchel v. Ashcroft, 338 F.3d 176, 178 (3d Cir.
2003); Garcia-Melendez v. Ashcroft, 351 F.3d 657, 661
(5th Cir. 2003); Aburto-Rocha v. Mukasey, 535 F.3d
500, 502 (6th Cir. 2008); Iddir v. INS, 301 F.3d 492, 497
(7th Cir. 2002); Ortiz-Comejo v. Gonzales, 400 F.3d 610,
612 (8th Cir. 2005); Montero-Martinez v. Ashcroft, 277
F.3d 1137,1144 (9th Cir. 2002); Sabido Valdivia v. Gon-

58a
zales, 423 F.3d 1144,1149 (10th Cir. 2005).5 I hoped this
Court would join the majority of our sister circuits.
A.
I first turn to the meaning of the word “judgment.”
Again, § 1252(a)(2)(B)(i) removes our juris'diction to re­
view “any judgment regarding the granting of relief’
under five specified sections of the INA. The majority
thinks the meaning of this word tells us quite a lot
about the scope of our jurisdiction. But “judgment” is
not defined in the statute and, in ordinary conversation,
it can convey different meanings.
“In determining the meaning of a statutory provi­
sion, we look first to its language, giving the words
used their ordinary meaning.” Artis v. District of Co­
lumbia, 583 U.S.__ , 138 S. Ct. 594, 603 (2018) (quota­
tion marks omitted). The INA does not define the term
“judgment.” Montero-Martinez, 277 F.3d at 1141. And
at the time § 1252(a)(2)(B)(i) was written, Black’s Law
Dictionary gave many definitions for the word, includ­
ing: “[t]he official and authentic decision of a court of
justice upon the respective rights and claims of the par­
ties to an action or suit therein litigated and submitted
to its determination”; “[t]he final decision of the court
resolving the dispute and determining the rights and
obligations of the parties”; “conclusion[s] of law upon
facts found or admitted by the parties”; and the
“[determination of a court of competent jurisdiction
upon matters submitted to it.” Judgment, Black’s Law
Dictionary (6th ed. 1990). Other contemporary diction­
aries also swept broadly. They included definitions
such as “the sentence of a court of justice, a judicial de5 The Fourth Circuit has reached a similar conclusion to that
of the majority. See Jean v. Gonzales, 435 F.3d 475, 480-81 (4th
Cir. 2006). The D.C. Circuit has not yet taken up this question.

59a
cision or order in court,” Judgment, Oxford English
Dictionary (2nd ed. 1989); “a formal utterance or pro­
nouncing of an authoritative opinion after judging,”
Judgment, Webster’s Third New International Dic­
tionary (1998); and “the mental or intellectual process
of forming an opinion or evaluation by discerning and
comparing” or “an opinion or estimate so formed,” id.
The majority says these definitions fall into two
categories: (1) final decisions or conclusions of a court
based on the application of law to fact and (2) any deci­
sion reached by a court. Maj. Op. at 28. But a judg­
ment can also be the exercise of discretion. See Montero-Martinez, 277 F.3d at 1144 (holding that the word
“judgment” could mean “a decision involving the exer­
cise of discretion” (quotation mark omitted)). This idea
is supported by definitions like the “process of forming
an opinion or evaluation by discerning and comparing.”
Judgment, Webster’s Third New International Dic­
tionary (1993). And I do not agree with the majority
that “any decision” is the only natural meaning in the
context of § 1252(a)(2)(B)(i). In particular, I reject the
majority’s definition that extends the meaning of the
word “judgment” to include findings of fact. This
seems to me a highly eccentric use of the word. 6

6 The majority cites a sentence from Nasrallah v. Barr, 590
U.S.
140 S. Ct. 1683 (2020), saying that under § 1252(a)(2)(B)
“a noncitizen may not bring a factual challenge to orders denying
discretionary relief.” See id. at 1693-94; Maj. Op. at 25. However,
the Court made this statement (without attendant analysis) only in
response to a potential counterargument regarding the scope of a
separate jurisdiction stripping statute, § 1252(a)(2)(C). See
Nasrallah, 140 S. Ct. at 1693-94. And as we note, see infra at 52,
the case the Supreme Court cited for this proposition, Kucana,
actually supports the opposite principle—that is, that
§ 1252(a)(2)(B) strips jurisdiction of only discretionary decisions.

60a
Take, for example, the decision of whether to grant
cancellation of removal under § 1229b(a), which is one
of the five forms of discretionary relief listed in
§ 1252(a)(2)(B)(i). To be eligible for cancellation of re­
moval, a permanent resident must show that she has
been a lawfully admitted permanent resident for at
least five years; she has resided continuously in the
United States for seven years after being admitted; and
she has not been convicted of an aggravated felony. 8
U.S.C. § 1229b(a). These eligibility requirements are
simply a matter of fact: either you’ve been in the Unit­
ed States for five years, or you haven’t. And a recita­
tion of this fact (one way or the other) would not natu­
rally be described as a “judgment.” Of course, I can’t
say that no one has ever used the word “judgment” to
mean “findings of fact,” but it does not reflect the most
natural understanding of the term.
And the INA uses the word “judgment” in other
places, where its meaning is never as broad as that asThe question we address today was not before the Court in
Nasrallah. And the Court did clarify that its decision “has no ef­
fect on judicial review of those discretionary determinations” de­
scribed in § 1252(a)(2)(B). Id. The statement quoted by the major­
ity is therefore indisputably dictum. Dicta, and especially Su­
preme Court dicta, can be persuasive but we are not required to
follow it where “the point now at issue was not fully debated.”
Kirtsaeng v. John Wiley & Sons, Inc., 568 U.S. 519, 548,138 S. Ct.
1351, 1368 (2013) (declining to follow “dictum contained in a rebut­
tal to a counterargument”). Thus, this statement from Nasrallah
is properly viewed in light of the facts that: the Supreme Court
conducted no analysis of § 1252(a)(2)(B) in connection with its men­
tion of factual challenges; the Court referenced Kucana, which
seems to link the jurisdiction stripping to discretionary decisions
only; and nine circuits say § 1252(a)(2)(B) does not strip jurisdic­
tion of federal courts to review fact-finding related to eligibility.
While ordinarily we find Supreme Court dicta to be persuasive, for
these reasons the quotation from Nasrallah is less so.

61a
signed to it by the majority opinion. It is a wellestablished canon of interpretation that we presume
the same word is intended to have the same meaning
when used in different parts of the same act. Envtl.
Def. v. Duke Energy Corp., 549 U.S. 561, 574,127 S. Ct.
1423, 1432 (2007). The word “judgment” is used thir­
teen times in the IN A. See Montero-Martinez, 277
F.3d at 1141 n.5. When not referring to the final deci­
sion of a court, the term “judgment” is used exclusively
to refer to discretionary decisions, including: the Attor­
ney General’s “judgment” of whether to establish DHS
offices in foreign countries, 8 U.S.C. § 1103(a)(7); the
Attorney General’s “discretionary judgment[s]” re­
garding the apprehension and detention of noncitizens,
id. § 1226(e); the Attorney General’s “discretionary
judgment” about whether to grant asylum, id.
§ 1252(b)(4)(D); and the Attorney General’s judgment
of whether removal of a noncitizen to the country of the
noncitizen’s designation would “impair the obligation of
the United States under any treaty ... or otherwise ad­
versely affect the foreign policy of the United States,”
id. § 1537(b)(2)(A). I’m aware the Supreme Court has
also cautioned that “most words have different shades
of meaning and consequently may be variously con­
strued,” even when used in the same statute. Duke
Energy Corp., 549 U.S. at 574, 127 S. Ct. at 1432 (quo­
tation marks omitted) (alteration adopted). But the
fact that the INA never uses the word judgment” to
mean “any decision” or “findings of fact” surely weighs
against imposing those meanings on the text of
§ 1252(a)(2)(B).7
n

It is true that in some places in the INA, Congress used the
phrase “discretionary judgment,” rather than just the word
“judgment.” I do not think the use of this phrase in other parts of

62a
The surrounding statutory language casts further
doubt on the majority’s conclusion. The title of the sub­
section, “Denials of discretionary relief,” suggests that
Congress intended to preclude review of the ultimate
discretionary decision, as opposed to the factual find­
ings that must be made prior to the exercise of that dis­
cretion. See St. Cyr, 533 U.S. at 308-09, 121 S. Ct. at
2284 (holding that the title of a statute cannot limit the
plain meaning of the text but can shed light on ambigu­
ous words or phrases).
Also, if we construe “judgment” to mean “any deci­
sion,” this would render the accompanying subsection,
§ 1252(a)(2)(B)(ii), superfluous. If “judgment” includes
all decisions, discretionary and non-discretionary, then
there would be no need for subsection (ii) to preclude
review of “other decision[s] or action[s]” which are
specified as discretionary. See Montero-Martinez, 277
F.3d at 1143 n.7; Torres v. Lynch, 578 U.S.__ , 136 S.
Ct. 1619, 1628 n.8 (2016) (noting courts ordinarily “as-

the statute tells us much about what Congress meant when it used
the word “judgment” alone. The sections of the INA that use the
phrase “discretionary judgment” do not appear in statutes with
similar construction as § 1252(a)(2)(B), and were not made part of
the statute at the same time. See Gomez-Perez v. Potter, 553 U.S.
474, 486, 128 S. Ct. 1931, 1940 (2008) (holding that the inference
from negative implication is strongest when “the relevant statuto­
ry provisions were considered simultaneously when the language
raising the implication was inserted” (quotation marks omitted));
City of Columbus v. Ours Garage & Wrecker Serv., Inc., 536 U.S.
424, 435-436, 122 S. Ct. 2226, 2234 (2002) (holding that presump­
tions from negative implication “grow[] weaker with each differ­
ence in the formulation of the provisions under inspection.”). But I
do think it significant that neither the phrase “discretionary judg­
ment” nor the word “judgment” alone are ever used to mean “find­
ings of fact” or “any decision.”

63a
sum[e] that Congress, when drafting a statute, gives
each provision independent meaning”).
Likewise, there are adjacent subsections of the
statute, in which Congress clearly meant to strip courts
of jurisdiction over all matters related to an immigra­
tion order or decision, and did so unequivocally and
without ambiguity. Section 1252(a)(2)(A)(i), which im­
mediately precedes § 1252(a)(2)(B), says that “no court
shall have jurisdiction to review ... any individual de­
termination or to entertain any other cause or claim
arising from or relating to the implementation or oper­
ation of an order of removal pursuant to section
1225(b)(1) of this title.” § 1252(a)(2)(A)(i) (emphasis
added). The jurisdiction-stripping effect of this statute
is similar to the effect the majority would give
§ 1252(a)(2)(B): it precludes all judicial review of any
factual determinations or applications of law to fact.
See Dep’t of Homeland Sec. v. Thuraissigiam, 591 U.S.
__ , 140 S. Ct. 1959, 1966 (2020). Congress also spoke
clearly to remove jurisdiction elsewhere in § 1252 of the
IN A. Section 1252(a)(2)(C) states “no court shall have
jurisdiction to review any final order of removal against
an alien who is removable by reason of having commit­
ted a criminal offense” under certain enumerated sec­
tions. In contrast, § 1252(a)(2)(B)(i) precludes review of
only “any judgment regarding the granting of relief.”
An examination of the language of these three ad­
jacent sections shows that if Congress wanted
§ 1252(a)(2)(B) to eliminate review over all decisions
underlying the grant of discretionary relief, it knew ex­
actly how to do it. And it did not do so. See MonteroMartinez, 277 F.3d at 1143 (holding that the contrast
between “[t]he broad and all-inclusive scope of subsec­
tion (A)(i)” and “the far more limited language of (B)(i)”
show that Congress intended (B)(i) to apply only to dis-

64a
cretionary decisions). This comparison also shows that
when Congress wanted to refer to a broad range of de­
cisions that include findings of fact, it did not use the
word “judgment.” Instead it used the words “decision”
or “determination,” which are significantly broader
terms. This strongly suggests that § 1252(a)(2)(B)(i)
limits review only of decisions left to the discretion of
the Attorney General, as opposed to the factual find­
ings related to eligibility.
Also worthy of note, the Supreme Court interpret­
ed the scope of § 1252(a)(2)(B)(ii) in Kucana, 558 U.S.
233, 130 S. Ct. 827. In doing so, it strongly suggested
that § 1252(a)(2)(B)(i) only applies to discretionary de­
cisions. See id. at 246. The Supreme Court said that
“[e]ach of the statutory provisions referenced in clause
(i) address a different form of discretionary relief from
removal, ... and each contains language indicating that
the decision is entrusted to the Attorney General’s dis­
cretion.” Id. The Supreme Court then explained:
Congress added in clause (ii) a catchall provi­
sion covering ‘any other decision ... the author­
ity for which is specified under this subchap­
ter.’ The proximity of clauses (i) and (ii), and
the words linking them—‘any other decision’—
suggests that Congress had in mind decisions
of the same genre, i.e., those made discretion­
ary by legislation. The clause (i) enumeration,
we find, is instructive in determining the mean­
ing of the clause (ii) catchall. Read harmonious­
ly, both clauses convey that Congress barred
court review of discretionary decisions only
when Congress itself set out the Attorney
General’s discretionary authority in the stat­
ute.

65a
Id. at 246-47 (emphasis added). Though I acknowledge
this passage is dicta, the discussion is closely related to
the statute and the concepts before us here. Kucana
essentially tells us that § 1252(a)(2)(B)(i) applies only to
discretionary decisions and it does so in a context that
provides persuasive authority to guide us here.
Because of the presumption in favor of judicial re­
view as well as the rule favoring narrow interpretation
of deportation-related laws, it is not necessary for me
to show that majority’s understanding of “judgment” is
impossible. I must show only that their interpretation
barring judicial review is not required. And this stat­
ute just as naturally accepts the narrower definition I
have given it. See Montero-Martinez, 277 F.3d at 1144
(“The meaning of ‘judgment’ in § 1252(a)(2)(B)(i) is un­
clear because the statute does not define the term, and
it could mean ‘any decision’ of the BIA, or it could mean
‘a decision involving the exercise of discretion.’”) In
light of the ambiguity of this statutory provision, the
statute does not clearly remove this Court’s jurisdiction
to review factual findings related to eligibility for the
enumerated forms of discretionary relief.
B.
The best interpretation of § 1252(a)(2)(B) is that it
excludes review of decisions that involve the exercise
of discretion. I recognize that this may include both the
final decision of whether to grant any of the five enu­
merated forms of relief, as well as some other discre­
tionary findings related to eligibility for relief. But it
does not include findings of fact that require no discre­
tionary evaluation from the factfinder. This narrower
interpretation, which has been adopted by almost every
circuit court, best comports with the structure and lan­
guage of the INA. See supra at 62. It also best aligns

66a
with our own precedent. See Gonzalez-Oropeza v. U.S.
Att’y Gen., 321 F.3d 1331, 1332 (11th Cir. 2003) (per cu­
riam) (holding that § 1252(a)(2)(B) does not prevent re­
view of “non-discretionary legal decisions that pertain
to statutory eligibility for discretionary relief’ (citing
Al Najjar v. Ashcroft, 257 F.3d 1262, 1298 (11th Cir.
2001)); Mejia Rodriguez v. Dep’t of Homeland Sec., 562
F.3d 1137, 1143 (11th Cir. 2009) (per curiam) (holding
that “simply because the Secretary has the ultimate
discretionary authority to grant an immigration benefit
does not mean that every determination ... regarding
an alien’s application for that benefit is discretionary,
and hence not subject to review”); Alvarado v. U.S.
Att’y Gen., 610 F.3d 1311,1314 (11th Cir. 2010) (holding
that the Court had jurisdiction to review the IJ’s con­
clusion that respondent had failed to timely request
voluntary departure because that was a “nondiscretionary judgment regarding ... statutory eligibil­
ity to request discretionary relief’).
1.
A review of the history and structure of removal
proceedings is helpful to clarify the meaning of “discre­
tionary decisions.” Courts have long recognized that
within immigration proceedings there is “a distinction
between eligibility for discretionary relief, on the one
hand, and the favorable exercise of discretion, on the
other hand.” St. Cyr, 533 U.S. at 307,121 S. Ct. at 2283;
Jay v. Boyd, 351 U.S. 345, 353, 76 S. Ct. 919, 924 (1956)
(distinguishing eligibility for relief from the decision
about whether to grant that relief); Judulang v. Holder,
565 U.S. 42, 48, 132 S. Ct. 476, 481 (2011) (describing
two-step process of determining eligibility for discre­
tionary relief and then determining whether to grant
that relief). The first step, eligibility for relief, is gener­
ally “governed by specific statutory standards” for de-

67a
termining who may receive it. St. Cyr, 533 U.S. at 307OS, 121 S. Ct. at 2283 (quoting Jay, 351 U.S. at 353, 76 S.
Ct. at 924); see also Zadvydas v. Davis, 533 U.S. 678,
688, 121 S. Ct. 2491, 2497 (2001) (“The aliens here ... do
not seek review of the Attorney General’s exercise of
discretion; rather, they challenge the extent of the At­
torney General’s authority under the [INA]. And the
extent of that authority is not a matter of discretion.”).
A noncitizen faces the discretionary decision of the
immigration authorities only once she has established
that the statute makes her eligible for that discretion­
ary form of relief. Foti v. INS, 375 U.S. 217, 228 n.15,
84 S. Ct. 306, 313 n.15 (1963) (holding that since an im­
migration officer “cannot exercise his discretion ... until
he finds the alien statutorily eligible ..., a finding of eli­
gibility and an exercise of (or refusal to exercise) dis­
cretion may properly be considered as distinct and sep­
arate matters”); McGrath v. Kristensen, 340 U.S. 162,
165, 71 S. Ct. 224, 227 (1950) (“Eligibility is a statutory
prerequisite to the Attorney General’s exercise of his
discretion to suspend deportation in this case.”). Un­
like eligibility, the decision about whether to grant a
form of relief for which a noncitizen is eligible “is in all
cases a matter of grace,” and in most cases is not guid­
ed by clear statutory standards. See St. Cyr, 533 U.S.
at 307-08, 121 S. Ct. at 2283 (quotation marks omitted);
Kucana, 558 U.S. at 247, 130 S. Ct. at 837 (describing
the enumerated forms of relief in § 1252(a)(2)(B)(i) as
“matter[s] of grace” (quotation marks omitted)).
Mr. Patel’s case illustrates the distinction between
eligibility for relief and the discretionary decision of
whether to grant that relief. Mr. Patel entered the
United States without inspection but applied for ad­
justment of status under 8 U.S.C. § 1255(i). Section
1255(i) provides that the Attorney General “may adjust

68a
the status” of a noncitizen who entered the United
States without inspection to that of a lawful permanent
resident. § 1255(i)(l)(A)(i), (2). In order to be eligible
for the Attorney General’s exercise of his discretion to
make that adjustment, the applicant carries the burden
of showing he meets a number of criteria. He must
show he is eligible for an immigrant visa which is im­
mediately available. § 1255(i)(2)(B). For this, he is ei­
ther eligible as a matter of fact, or he is not. He must
show he is admissible to the United States for perma­
nent residence. § 1255(i)(2)(A). Again, he is either ad­
missible, or he is not. And an applicant who, like Mr.
Patel, is the beneficiary of a labor certification must al­
so show that he was physically present in the United
States on December 21, 2000. § 1255(i)(l)(C). For this
as well—he was either in the United States on Decem­
ber 21, 2000 or he was not. No discretion is required to
make these decisions. But once he has established that
he meets all of these eligibility criteria, the Attorney
General then “may” grant his application. As the word
“may” indicates, and as § 1252(a)(2)(B)’s reference to
§ 1255 confirms, the discretionary decision is the deci­
sion of whether to grant the request of an eligible ap­
plicant to adjust status. Characteristically, the statute
carefully defines the conditions of eligibility for ad­
justment but gives no guidance as to which eligible
candidates should receive this discretionary relief.
That, of course, is left to the discretion of the Attorney
General.8

8

The majority says that enabling review of non-discretionary
decisions related to eligibility would render § 1252(a)(2)(B)(i)
meaningless by “effectively allowing] for review of the grant of
relief.” Maj. Op. at 48. But of course, the narrow reading of the
statute I propose here would still preclude review of all discretion-

69a
In examining this area of the law, I recognize that
some findings about eligibility are also left to the dis­
cretion of the Attorney General. In this regard, the
majority offers the example of a noncitizen seeking
cancellation of removal under § 1229b(b). That person
is required to show (A) continuous physical presence
for not less than 10 years; (B) good moral character; (C)
that he has not been convicted of certain criminal of­
fenses; and (D) that removal would result “in excep­
tional and extremely unusual hardship to the alien’s
spouse, parent, or child, who is a citizen of the United
States or an alien lawfully admitted for permanent res­
idence.” 8 U.S.C. § 1229b(b). For the factfinder, there
is surely discretion involved in deciding whether a per­
son’s absence from the country would cause “excep­
tional and extremely unusual hardship” on their family
members. Two fair-minded factfinders could look at
the same facts and make a different finding. Perhaps as
a result, this Court and others have consistently held
that the decision about whether removal would result
in “exceptional and extremely unusual hardship” is one
left to the discretion of the Attorney General, and so is
not subject to review under § 1252(a)(2)(B). See Gonzalez-Oropeza, 321 F.3d at 1333; Romero-Torres v. Ash­
croft, 327 F.3d 887, 891 (9th Cir. 2003); MendezMoranchel v. Ashcroft, 338 F.3d 176,179 (3d Cir. 2003).
Unlike non-discretionary factual findings (like whether
the respondent was present in the United States on a
certain date), assessing “exceptional and extremely un­
usual hardship” is a “subjective question that depends
on the value judgment of the person or entity examin­
ing the issue.” Romero-Torres, 327 F.3d at 891 (quota­
tion marks omitted).
ary decisions, including the ultimate decision of whether to grant
discretionary relief to eligible respondents.

70a
There is a clear difference between straightforward
factual findings and discretionary judgments. With this
in mind, the narrower interpretation of “judgment” as
“discretionary decision” produces a more coherent
reading of the statute as a whole. In drafting subsec­
tions (i) and (ii), “Congress had in mind decisions of the
same genre, i.e., those made discretionary by legisla­
tion,” Kucana, 558 U.S. at 246-47, 130 S. Ct. at 836.
Under this interpretation, subsection (i) would exclude
from our review discretionary judgments, even includ­
ing eligibility requirements that call upon the factfinder
to employ discretion, and the ultimate decision about
whether to grant relief, and subsection (ii) would func­
tion as a “catchall” clause to remove our jurisdiction
over those discretionary decisions other than the grant­
ing of relief under subsection (i). This reading harmo­
nizes the common meaning of “judgment,” the adjacent
statutory language, and longstanding precedent recog­
nizing the distinction between discretionary and non­
discretionary decisions. Certainly, this interpretation
is at least as plausible as that given by the majority.
And since we must construe the immigration statutes
in favor of judicial review absent clear statutory lan­
guage to the contrary, the ambiguity in § 1252(a)(2)(B)
does not allow the broader removal of our jurisdiction
mandated by the majority opinion.
The majority claims the distinction between discre­
tionary and non-discretionary determinations has no
statutory basis. Maj. Op. at 35-36. Yet this distinction
has been repeatedly recognized by the Supreme Court.
And as demonstrated here, it also emerges naturally
from the structure of removal proceedings, the text of
§ 1252(a)(2)(B)(i), and the uniquely discretionary nature
of some eligibility determinations left to the discretion
of the Attorney General. But the majority does not

71a
stop there. It goes further to argue that there is no dif­
ference between discretionary and non-discretionary
eligibility decisions, since all application of law to fact
“will necessarily involve judgment.” Maj. Op. at 38
(quotation marks omitted). But this argument ignores
the obvious differences between such straightforward
eligibility-related factual findings as the length of time
of continuous presence in the United States, and the
more nuanced findings required in deciding whether
there is “exceptional and extremely unusual hardship”
in any given case. The first determination is selfexplanatory and can most often be easily verified as ei­
ther correct or incorrect. But the same cannot be said
of the second. That “hardship” determination requires
the Attorney General to use judgment to place some­
one in a subjective category that lacks clear, selfexplanatory boundaries. See Moosa v. INS, 171 F.3d
994,1013 (5th Cir. 1999) (noting that the term “extreme
hardship” is “not self-explanatory” and that reasonable
people could differ as to its construction (quotation
marks omitted)). There is no need for “mental gymnas­
tics” to see the difference between these two catego­
ries, as the majority claims. Maj. Op. at 39. This Court
and our sister circuits have been ably distinguishing
them for decades. See, e.g., id:, Gonzalez-Oropeza, 321
F.3d at 1332-33.
I also reject the view of the majority that the dis­
tinction between discretionary and non-discretionary
eligibility findings is illogical as a matter of policy. Maj.
Op. at 38-39. There is good reason to leave discretion­
ary decisions in the hands of the Attorney General
while maintaining appellate review of nondiscretionary
findings. For example, when interpreting the phrase
“extreme hardship” in a predecessor statute to § 1229b,
the Supreme Court recognized that “[t]he Attorney

72a
General and his delegates have the authority to con­
strue ‘extreme hardship’ narrowly should they deem it
wise to do so” and that imposing a different interpreta­
tion would “shift the administration of hardship depor­
tation cases from the Immigration and Naturalization
Service to this court.” INS v. Jong Ha Wang, 450 U.S.
139,145-46,101 S. Ct. 1027,1031-32 (1981) (per curiam).
Similarly, we do not review the ultimate decision of
whether to grant discretionary relief because it is not
bounded by clear statutory standards and requires the
application of the Attorney General’s subjective judg­
ment. See St. Cyr, 533 U.S. at 307-08, 121 S. Ct. at
2283. But there is no good reason to commit straight­
forward factual findings to the unreviewable discretion
of the executive branch. After all, those are questions
about which the Attorney General simply might be
wrong.
2.

The majority says we must read § 1252(a)(2)(B)(i)
in conjunction with § 1252(a)(2)(D). Maj. Op. at 30-31,
39-40. True, but in doing so, I draw the conclusion op­
posite from that of the majority. Congress added
§ 1252(a)(2)(D) through the REAL ID Act of 2005 to
restore circuit courts’ jurisdiction to review legal and
constitutional claims in immigration cases. REAL ID
Act of 2005, Pub. L. No. 109-13, § 106(a), 119 Stat. 231,
310 (2005). Its purpose was to channel those cases out
of district courts and into the appellate courts, thereby
avoiding ‘“bifurcated and piecemeal litigation.’” Balogun v. U.S. Att’y Gen., 425 F.3d 1356, 1359-60 (11th
Cir. 2005) (quoting 151 Cong. Rec. H2813, H2873). This
was a response to the Supreme Court’s decision in St.
Cyr, which held that §§ 1252(a)(1), (a)(2)(C), and (b)(9)
did not strip the district courts of jurisdiction to consid­
er habeas petitions under 28 U.S.C. § 2241. See Chen v.

73a
U.S. Dept of Justice, 471 F.3d 315, 327 (2d Cir. 2006)
(describing legislative history of § 1252(a)(2)(D) (citing
H.R. Rep. No. 109-72, at 174-75 (2005))).
Nothing in the text or legislative history of
§ 1252(a)(2)(D) suggests that it was meant to expand
the jurisdiction-stripping effect of § 1252(a)(2)(B). In
fact, the legislative history weighs against the majori­
ty’s interpretation.9 When Congress passed the REAL
ID Act in 2005, many circuits were already reading
§ 1252(a)(2)(B) narrowly, so as to permit judicial review
of straightforward factual findings about eligibility. In
the face of this precedent, Congress could have amend­
ed § 1252(a)(2)(B) to stop this type of review. But it did
not. Rather, it expanded the jurisdiction of courts to
review legal and constitutional error that had previous­
ly been barred. Thus, Congress’s actions strongly sug­
gest it did not intend § 1252(a)(2)(B) to strip courts of
this jurisdiction over anything other than the discre­
tionary decision related to certain forms of relief. See
Block v. Cmty. Nutrition Inst., 467 U.S. 340, 349,104 S.
Ct. 2450, 2455 (1984) (“The congressional intent neces­
sary to overcome the presumption [favoring judicial re­
view] may also be inferred from contemporaneous judi­
cial construction barring review and the congressional
acquiescence in it.”).
C.
Finally, I must address another serious problem
with the majority’s interpretation of § 1252(a)(2)(B).
When it sweeps all factual findings and discretionary
9 We review legislative history only when there is ambiguity
in the text of the statute. Harris v. Gamer, 216 F.3d 970, 976-77
(11th Cir. 2000) (en banc). I have set out why I believe there is
such ambiguity here.

74a
judgments into § 1252(a)(2)(B), the majority opinion
gives the government the ability to insulate agency
findings from judicial review, solely by the way its
charges a case. This is not proper. In Kucana, the Su­
preme Court told us that IIRIRA, which added
§ 1252(a)(2)(B) to the INA, “did not delegate to the Ex­
ecutive authority to” “pare[] back judicial review.” Ku­
cana, 558 U.S. at 252-53, 130 S. Ct. at 840. Since the
majority’s interpretation would allow the Attorney
General and his delegates to do just that, it is directly
at odds with Supreme Court precedent.
Removal proceedings have two stages. First, the
government has the burden of establishing, by clear
and convincing evidence, that the noncitizen is remova­
ble. Bigler v. U.S. Att’y Gen., 451 F.3d 728, 732 (11th
Cir. 2006) (per curiam). The grounds for removability
include both grounds of inadmissibility, 8 U.S.C.
§ 1182(a), and grounds of deportation, 8 U.S.C.
§ 1227(a). See Judulang, 565 U.S. at 45-46,132 S. Ct. at
479 (describing the evolution of modern removal pro­
ceedings and explaining that, since 1996, there has been
a unified procedure for both excluding and deporting
noncitizens). Then, if the government proves remova­
bility, or the noncitizen concedes it, the noncitizen may
apply for various forms of discretionary relief. See Matovski v. Gonzales, 492 F.3d 722, 727 (6th Cir. 2007).
These discretionary forms of relief include seeking an
adjustment of status, as Mr. Patel did here. Id. For
this, he bears the burden of proving eligibility. Id.
To be eligible for some forms of discretionary relief,
such as adjustment of status under § 1255(i), the appli­
cant must be “admissible.” 8 U.S.C. § 1255(a)(2). But
being inadmissible is also an independent ground for
removal. So, in some cases, a noncitizen could be both
removable and ineligible for discretionary relief based

75a
on the same facts. Now under the interpretation the
majority gives to § 1252(a)(2)(B), our jurisdiction to re­
view whether a noncitizen is admissible will, in many
cases, depend entirely on the Attorney General’s charg­
ing decision. If the government charges a noncitizen as
removable for being inadmissible, and the IJ finds the
noncitizen inadmissible, our Court will retain jurisdic­
tion to review that finding under § 1252(b)(9). That
provision grants us jurisdiction to review “all questions
of law and fact... arising from any action taken or pro­
ceeding brought to remove an alien from the United
States.” But if the government does not charge the
noncitizen as removable for being inadmissible, and the
IJ finds the noncitizen ineligible for discretionary relief
because he is inadmissible, our Court will lack jurisdic­
tion to review that finding. In both cases, the IJ will
have found the noncitizen inadmissible, but the gov­
ernment’s charging decision alone will have established
the scope of our jurisdiction.
And that is exactly what happened to Mr. Patel.
The government issued Mr. Patel an NTA that charged
him with being removable for being an alien present in
the United States without being admitted or paroled,
pursuant to 8 U.S.C. § 1182(a)(6)(A)(i). However, the
NTA did not charge him with being inadmissible for
falsely
representing
citizenship
under
his
§ 1182(a)(6)(C)(ii). Had it done so, it is indisputable that
the IJ’s factfinding at issue here would have been reviewable. Instead, the government raised inadmissibil­
ity only in opposition to Mr. Patel’s application for ad­
justment of status. As a result, and because today’s
majority ruling says we now cannot review any factual
determinations related to Mr. Patel’s eligibility for ad­
justment of status, the government’s charging decision

76a
has fully insulated from judicial review the IJ’s finding
that Mr. Patel is inadmissible.
This outcome is at odds with Kucana. In Kucana,
the Supreme Court interpreted § 1252(a)(2)(B)(ii) as
precluding judicial review of decisions made discretion­
ary by statute, but not of decisions made discretionary
by agency regulation. 558 U.S. at 252-53, 130 S. Ct. at
840. It held that “[b]y defining the various jurisdiction­
al bars by reference to other provisions in the INA it­
self, Congress ensured that it, and only it, would limit
the federal courts’ jurisdiction.” Id. at 252,130 S. Ct. at
839. Giving the executive branch a “free hand to shel­
ter its own decisions from abuse-of-discretion appellate
court review simply by issuing a regulation declaring
those decisions ‘discretionary’” would be an “extraordi­
nary delegation of authority” which “cannot be extract­
ed from the statute Congress enacted.” Id. at 252, 130
S. Ct. at 840.
If § 1252(a)(2)(B) does not permit the executive
branch to insulate its decisions from review by regula­
tion, surely it does not allow it to do the same through
the exercise of its immigration charging discretion. In­
deed, the Supreme Court has specifically disapproved
of leaving eligibility for discretionary immigration re­
lief to “the fortuity of an individual official’s [charging]
decision.” Jvdulang, 565 U.S. at 58, 132 S. Ct. at 486.
Doing so subjects identically situated noncitizens to dif­
ferent outcomes and turns deportation proceedings into
a “sport of chance.”10 Id. at 59,132 S. Ct. at 487 (quota­
tion marks omitted).
10 The majority accepts this delegation of authority as per­
missible because § 1252(a)(2)(B)(i) limits review of decisions relat­
ed to the grant of discretionary relief, not removability. Maj. Op.
at 40 n.26. But Kucana was similar to Mr. Patel’s case. In Kuca-

77a
Today, the majority gives precisely this extraordi­
nary degree of authority to immigration officials. The
INA or Supreme Court precedent do not permit this.
And this startling result offers an independent reason
to reject the rule adopted by the majority here.
IV.
In holding the IJ’s factual findings unreviewable,
the majority ignores a narrower interpretation of
§ 1252(a)(2)(B)(i) that is at least as plausible as its own.
My narrow interpretation better fits the natural mean­
ing of “judgment” and its use in the INA; the legislative
history of the § 1252(a)(2)(B) and (D); and the structure
of removal proceedings. And it does not vest the exec­
utive branch with the authority to insulate its own de­
cisions from judicial review based solely on charging
decisions. I understand § 1252(a)(2)(B)(i) to permit us
to review the IJ’s finding that Mr. Patel’s false claim of
citizenship was made with subjective intent.

na, the Supreme Court addressed its jurisdiction to review denials
of motions to reopen, an arguably discretionary form of relief. 558
U.S. at 242, 130 S. Ct. at 834. It did not address determinations
related to removability. Id. The Court held that the executive
branch may not render decisions on motions to reopen unreviewa­
ble under § 1252(a)(2)(B)(ii) even by promulgating regulations cat­
egorizing those decisions as discretionary. Id. at 252-253, 130 S.
Ct. at 840. I am therefore not persuaded by the majority’s argu­
ment that we may delegate such extraordinary authority to the
executive branch even in the context of discretionary relief.

79a
APPENDIX B
[PUBLISH]

In the United States Court of Appeals
for the Eleventh Circuit
No. 17-10636
Agency No. A072-565-851
Pankajkumar S. Patel, Jyotsnaben P. Patel,
Nishantkumar Patel,
Petitioners,
versus
U.S. Attorney General,
Respondent.
March 6,2019
Petition for Review of a Decision of
the Board of Immigration Appeals
Before: Tjoflat, Marcus and Newsom, Circuit Judges.
TJOFLAT, Circuit Judge:
This case presents interesting, and rather compli­
cated, questions of statutory interpretation.
Pankajkumar Patel, an immigrant facing removal,
asks us to review a decision by the Board of Immigra­
tion Appeals. The Board held that Patel is inadmissi­
ble, and thus cannot get relief from removal, because he
falsely represented himself as a citizen when applying
for a Georgia driver’s license. The relevant statute

80a
provides that an alien is inadmissible if he falsely rep­
resents himself as a U.S. citizen “for any purpose or
benefit” under the law. 8 U.S.C. § 1182(a)(6)(C)(ii)(I).
Under the Board’s previous interpretation of the stat­
ute, an alien is inadmissible only if he makes the false
representation with the intent to obtain the purpose or
benefit, and if the false representation is material to the
purpose or benefit sought. Matter of Richmond, 26 I. &
N. Dec. 779, 786-87 (BIA 2016). Patel argues that he
simply checked the wrong box, and that citizenship did
not affect the application. His case presents two ques­
tions.
First, whether we have jurisdiction to review Pa­
tel’s claim that, as a factual matter, he checked the
wrong box and thus lacked the requisite subjective in­
tent to trigger the statute. Second, whether we must
defer to the Board’s interpretation in Richmond, find­
ing a materiality element in the statute. The answer to
both is, we do not.
I.
Patel came to the United States from India. He en­
tered the country without inspection. Consequently,
the Department of Homeland Security issued a notice
to appear to Patel charging him as removable for being
present in the United States without inspection. See 8
U.S.C. § 1182(a)(6)(A)(i) (“An alien present in the Unit­
ed States without being admitted or paroled ... is in­
admissible.”).
Patel conceded removability, but he sought discre­
tionary relief from removal by applying for adjustment
of status under 8 U.S.C. § 1255(i). Section 1255 permits
an alien who entered without inspection to obtain relief
from removal if, among other things, the alien is the
beneficiary of a labor certification.
See

81a
§ 1255(i)(l)(B)(ii). Patel was a valid beneficiary, be­
cause he had an approved 1-140 Immigrant Petition for
Alien Worker.1
The Attorney General may adjust an alien’s status
to lawful permanent resident if the alien meets certain
requirements.
See § 1255(i); see also 8 C.F.R.
§ 1245.10(b) (listing the eligibility requirements for an
alien who entered without inspection and is seeking ad­
justment of status based on a labor certification). The
parties agree that Patel meets all the statutory criteria
for adjustment of status except one: the applicant must
show “clearly and beyond doubt” that he is not inad­
missible. See 8 U.S.C. § 1229a(c)(2) (in a removal pro­
ceeding, an alien applying for admission “has the bur­
den of establishing ... that the alien is clearly and be­
yond doubt entitled to be admitted and is not inadmis­
sible”).
Patel’s admissibility is in doubt because he falsely
represented that he was a U.S. citizen when he applied
for a Georgia driver’s license in 2008. When applying
for the license, Patel checked the box indicating that he
is a U.S. citizen. This incident arguably renders Patel
inadmissible pursuant to § 1182(a)(6)(e)(ii)(I), which
says:
Any alien who falsely represents, or has falsely
represented, himself or herself to be a citizen of
the United States for any purpose or benefit
i

His wife, Jyotsnaben Patel, and son, Nishantkumar Patel,
are also parties to this appeal. They too are subject to removal for
entering the country without inspection. They are seeking ad­
justment of status as derivative beneficiaries of Patel’s labor certi­
fication. As Patel is the lead respondent, and the outcome of all of
their petitions for relief depends on his case, we focus solely on
Patel for the convenience of the reader.

82a
under this chapter (including section 1324a of
this title) or any other Federal or State law is
inadmissible.
The Board of Immigration Appeals interpreted this
section to require three elements: (1) a false represen­
tation of citizenship; (2) that is material to a purpose or
benefit under the law; (3) with the subjective intent of
obtaining the purpose or benefit. Richmond, 26 I. & N.
Dec. at 786-87.
There was no dispute that Patel made a false rep­
resentation of citizenship. Nor was there any dispute
that a driver’s license is a benefit under state law. Pa­
tel challenged the applicability of the statute on two
grounds: he lacked the requisite subjective intent, and
the false representation was not material.
At the removal hearing, Patel argued that he did
not have the requisite subjective intent: he simply
made a mistake. To prove that it was a mistake, Patel
claimed that he provided his alien registration number
and his employment authorization card to the DMV
with his driver’s license application, suggesting that it
would make no sense to document his non-citizen status
if his goal was to pose as a citizen.
Patel also argued that a false representation of citi­
zenship was not material to obtaining a driver’s license.
He asserted that an alien is eligible to receive a driver’s
license in Georgia. As proof, Patel observed that he
had previously received a license from Georgia.
The Immigration Judge (“IJ”) rejected Patel’s ar­
guments. The IJ determined that Patel was not credi­
ble. He was evasive when testifying and would not ex­
plain to the Court exactly what the mistake was. Fur­
thermore, contrary to his testimony, Patel did not write

83a
his alien registration number on the application. Where
the application asks about citizenship, it directs the ap­
plicant to provide his alien registration number if he is
not a citizen. Patel marked that he was a citizen and
did not write down his alien registration number. The
application also does not reflect that Patel provided his
employment authorization card: in the section on the
form where the Georgia official is to list the documents
accepted, the only document mentioned is the old Geor­
gia driver’s license. In short, the evidence contradicted
Patel’s testimony, which the IJ already suspected was
not candid, so the IJ did not believe Patel’s claim that
he made a mistake. The IJ found that Patel willfully
and purposefully indicated that he was a U.S. citizen.
The IJ also held that Patel failed to meet his bur­
den of proving that he was otherwise eligible for a
driver’s license. The fact that Patel had previously ob­
tained a license in Georgia is inconclusive. Patel might
have misrepresented his citizenship on his past applica­
tion too. Alternatively, the IJ continued, even if Patel
obtained his prior license without claiming citizenship,
the rules governing who qualifies for a license in Geor­
gia could have changed in the interim. Patel simply did
not provide enough evidence to show that he was oth­
erwise eligible for the license.2
Because Patel failed to show that he was not inad­
missible, the IJ denied his application for adjustment of
status and ordered the removal of the Patels.
2 To prove his theory, Patel asked the IJ to take judicial no­
tice of Georgia law. The IJ refused. We pause to note that, if
asked, federal courts must take judicial notice of state law. See
Lamar v. Mieou, 114 U.S. 218, 223, 5 S. Ct. 857, 859 (1885) (“The
law of any state of the Union, whether depending upon statutes or
upon judicial opinions, is a matter of which the courts of the United
States are bound to take judicial notice, without plea or proof.”).

84a
The Board affirmed. It found no clear error in the
factual finding that Patel was not credible and made the
false representation for the purpose of obtaining a li­
cense—i.e., with subjective intent. The Board also
agreed that Patel did not produce enough evidence to
prove that he was otherwise eligible for a license—i.e.,
to prove that the false representation was immaterial.
One board member dissented. She observed that
Georgia law extended driver’s licenses to those with
lawful status. See Ga. Comp. R. & Regs. 375-3-1.02(6)
(“Each customer must provide documentation of his or
her citizenship or lawful status in the United States.”
(emphasis added)). And an alien with “a pending appli­
cation for lawful permanent residence” has lawful sta­
tus for the purpose of a driver’s license application.
6 C.F.R. § 37.3. Since Patel had a pending application
for lawful permanent residence when he applied for the
Georgia license, he did not need citizenship to obtain
the license. Thus, the dissenting board member rea­
soned, the false representation was immaterial.
Patel appeals the Board’s decision.
II.
Typically, on appeals from a Board decision, we re­
view legal conclusions de novo, and we review factual
findings under the substantial evidence test. Gonzalez
v. U.S. Att’y Gen., 820 F.3d 399, 403 (11th Cir. 2016).
When the Board expressly adopts the IJ’s findings or
reasoning, we also review the IJ’s decision. Id. Both
parties propose we follow the typical standard.
But Congress has stripped our jurisdiction to hear
certain appeals of immigration cases. And even when
the parties agree, we must consider jurisdictional is­
sues sua sponte. Gonzalez v. Thaler, 565 U.S. 134,141,

85a
132 S. Ct. 641, 648 (2012) (“When a requirement goes to
subject-matter jurisdiction, courts are obligated to con­
sider sua sponte issues that the parties have disclaimed
or have not presented.”).
Congress enumerated several “[mjatters not sub­
ject to judicial review” in 8 U.S.C. § 1252(a)(2).3 As it
pertains to this case, we do not have “jurisdiction to re­
view ... any judgment regarding the granting of relief
under section ... 1255 of this title.” § 1252(a)(2)(B).
However, even when this jurisdictional bar applies, we
still have power to review constitutional claims or
questions of law. See § 1252(a)(2)(D). In short, we can­
not review appeals from judgments under § 1255 unless
the party raises a constitutional claim or a question of
law.
Accordingly, as Patel appeals from the denial of his
claim for adjustment of status under § 1255, we review

3 The statute provides, in relevant part:
(2) Matters not subject to judicial review

(B) Denials of discretionary relief

[N]o court shall have jurisdiction to review—
(i) any judgment regarding the granting of relief under
section 1182(h), 1182(i), 1229b, 1229c, or 1255 of this title,
or
(ii) any other decision or action of the Attorney General
... the authority for which is specified under [8 U.S.C.
§§ 1151-1381] to be in the discretion of the Attorney
General[.]

86a
the legal conclusions below de novo, but we cannot re­
view the factual findings.4
4 On closer inspection, the jurisdictional issue is more compli­
cated. Section 1252(a)(2)(B)(i) precludes review of “any judgment
regarding the granting of relief.” (emphasis added). Arguably,
judgments denying relief do not come within the statute. This
reading of the text is even more plausible when considered along­
side other provisions limiting judicial review of immigration cases.
In those provisions, Congress precluded review of decisions to
“grant or deny” a waiver. See, e.g., § 1182(h); see also Nken v.
Holder, 556 U.S. 418, 430, 129 S. Ct. 1749, 1759 (2009) (“[Wjhere
Congress includes particular language in one section of a statute
but omits it in another section of the same Act, it is generally pre­
sumed that Congress acts intentionally and purposely in the dis­
parate inclusion or exclusion.” (alteration in original) (quotation
omitted)). Additionally, if § 1252(a)(2)(B)(i) is interpreted to apply
to judgments both granting and denying relief, it likely renders
superfluous two other jurisdiction stripping provisions referenced
in the section. Compare § 1252(a)(2)(B)(i) (precluding review of
“any judgment regarding the granting of relief under section
1182(h), 1182(i), 1229b, 1229c, or 1255”), with § 1182(h) (“No court
shall have jurisdiction to review a decision of the Attorney General
to grant or deny a waiver under this subsection.”), and § 1182(i)(2)
(“No court shall have jurisdiction to review a decision or action of
the Attorney General regarding a waiver under paragraph (1).”).
We are also mindful that there is a strong presumption in favor of
interpreting statutes to allow judicial review of administrative
actions; consequently, jurisdiction stripping is construed narrowly.
See Kucana v. Holder, 558 U.S. 233, 251-52, 130 S. Ct. 827, 839
(2010).
On the other hand, the title of the subsection says “[djenials
of discretionary relief.” § 1252(a)(2)(B). While section headings
cannot displace the text of the statute, they can help resolve ambi­
guities in the text’s meaning. See Fla. Dep’t of Revenue v. Picca­
dilly Cafeterias, Inc., 554 U.S. 33, 47, 128 S. Ct. 2326, 2336 (2008).
This principle begs the question of whether the text “any judg­
ment regarding the granting of relief’ is ambiguous, or whether
the title—which singles out denials of relief—would displace con­
flicting text. The text is arguably ambiguous, because it mentions
judgments regarding the granting of relief. At any rate, it would

87a
III.
The issue in this case is whether Patel is inadmissi­
ble pursuant to § 1182(a)(6)(C)(ii)(I) for falsely repre­
senting himself to be a U.S. citizen on his driver’s li­
cense application. The Board has read two elements
into the statute: subjective intent—the alien must
make the false representation with the intent of obtain­
ing a purpose or benefit under the law—and materiali­
ty—the false representation must be material to the
be an odd turn of reasoning to say that a subsection purportedly
about denials is really limited to grants.
Furthermore, one could argue that denials of relief under
§ 1255 are excluded by the catchall provision in § 1252(a)(2)(B)(ii).
But this interpretation runs into the same problem of rendering
§ 1182(h) and § 1182(i) superfluous. Plus, when interpreting stat­
utes, we favor the specific over the general, and because
§ 1252(a)(2)(B)(i) specifically deals with appeals from § 1255, we
probably should not interpret the catchall provision to deal with
the same thing. See In re Read, 692 F.3d 1185, 1191 (11th Cir.
2012) (“General language of a statutory provision, although broad
enough to include it, will not be held to apply to a matter specifical­
ly dealt with in another part of the same enactment.” (quoting D.
Ginsberg & Sons, Inc. v. Popkin, 285 U.S. 204, 208, 52 S. Ct. 322,
323 (1932)).
For these reasons, we think the application of § 1252(a)(2)(B)
to denials of relief under § 1255 is at least unclear. If it does not
apply, we would be free to review factual findings under the typi­
cal substantial evidence test. Ultimately, however, we are bound
to follow our precedents. To our knowledge, none of our prece­
dents have grappled with the arguments raised here. But we have
routinely read § 1252(a)(2)(B)(i) to apply to appeals of grants and
denials. See, e.g., Jimenez-Galicia v. U.S. Att’y Gen., 690 F.3d
1207, 1209 (11th Cir. 2012) (“The INA prevents judicial review of
the Board’s discretionary judgments that grant or deny petitions
for cancellation of removal.”). And we cannot get around the prior
panel precedent rule just because the prior panel did not consider
this argument; there is no exception for that. See Smith v. GTE
Corp., 236 F.3d 1292,1302-03 (11th Cir. 2001).

88a
purpose or benefit sought. Richmond, 26 I. & N. Dec.
at 786-87. Patel claims that he does not meet either re­
quirement. We address each claim in turn.
A.
Patel contends that he did not have the requisite
subjective intent when the made the false representa­
tion of citizenship. He says that he made a mistake—he
did not intend to make the false representation, he
meant to check the box indicating that he was a non­
citizen. This argument assumes that the false repre­
sentation must have been made knowingly. We doubt
that there is a knowing requirement.5 Because the par5 The question is, what exactly does subjective intent require?
It could mean that the alien must intend to make a false represen­
tation of citizenship—i.e., a knowing requirement—or it could
mean that the alien must make a false representation, wittingly or
unwittingly, with the intent of obtaining a purpose or benefit un­
der the law. In other words, does the statute cover those who
even accidentally make a false representation of citizenship in the
course of pursuing a purpose or benefit under the law?

!• '

We seriously doubt that § 1182(a)(6)(C)(ii)(I) requires the
false claim to be knowing. For starters, the text does not mention
a “knowing” or “willful” false representation of citizenship. See
Valadez-Munoz v. Holder, 623 F.3d 1304, 1309 n.7 (9th Cir. 2010)
(“It should be noted that the criminal statute requires the repre­
sentation to be both false and willful, while [§ 1182(a)(6)(C)(ii)(I)]
only requires falsity.”). And, again, the immediately preceding
subsection does include a knowing requirement. § 1182(a)(6)(C)(i)
(“Any alien who, by fraud or willfully misrepresenting a material
fact, seeks to procure ... [an immigration benefit] is inadmissible.”
(emphasis added)).
In addition, if we interpreted the statute to include a knowing
requirement, it would render superfluous the exception in the im­
mediately following subsection. The exception provides that an
alien who falsely claims citizenship for a public benefit “shall not be
considered to be inadmissible” if, among other things, the alien
“reasonably believed at the time of making such representation

89a
ties did not address this question, however, we will as­
sume that there is and that Patel’s claim, if true, would
have entitled him to relief below.
At bottom, Patel maintains that the evidence, if
properly considered, shows that he made a mistake. He
repeats his assertion that he provided the DMV official
with his immigration documents. If true, it must have
been a mistake to check the citizen box, since it would
make no sense for someone posing as a citizen to pro­
vide proof of their immigrant status. Of course, the
Board and the IJ decided his assertion was not true.
Patel also argues that because he secured a driver’s li­
cense in the past, he knew he could get a license with­
out posing as a citizen, and there was no reason to lie.6
that he or she was a citizen.” 8 U.S.C. § 1182(a)(6)(C)(ii)(II). If the
provision at issue in this case contains a knowing requirement, the
exception Congress explicitly included is entirely unnecessary.
See Richmond v. Holder, 714 F.3d 725, 729 n.3 (2d Cir. 2013) (“The
negative pregnant of this exception is clear: for aliens ... who fail
to meet those requirements, false citizenship claims need not be
knowing to run afoul of [the statute].”). Basic principles of statu­
tory interpretation counsel strongly against that result. See Ru­
bin v. Islamic Republic of Iran, 138 S. Ct. 816, 824 (2018) (It is
“one of the most basic interpretive canons, that a statute should be
construed so that effect is given to all its provisions, so that no
part will be inoperative or superfluous, void or insignificant.” (al­
teration omitted) (quotation omitted)).
Furthermore, the Board did not decide this issue, so there is
no issue of Chevron deference. Richmond, 26 I. & N. Dec. at 783
(“[W]e need not reach the parties’ arguments relating to whether a
false claim must be made knowingly[.]”).
6 Not quite. Georgia law dictates that a non-citizen with law­
ful status can only receive a temporary license, while a citizen is
eligible for an eight-year license. Compare O.C.G.A. § 40-5-21.1(a),
with Ga. Comp. R. & Regs. 375-3-2.01(l)(a). Thus, the opportunity
to get a longer-term license is a possible reason to falsely claim
citizenship.

90a
But we do not have jurisdiction to review these ar­
guments. “Whether [Patel’s] false claim was made with
a subjective intent is a question of fact to be deter­
mined by the Immigration Judge.” Richmond, 26 I. &
N. Dec. at 784. And we do not review factual findings
from denials of relief under § 1255. See § 1252(a)(2).
Patel’s claim is nothing more than a request for us to
reweigh the evidence. This is a standard factual dis­
pute, and we cannot review it.
B.
Patel’s second claim is that he does not satisfy the
materiality element of § 1182(a)(6)(C)(ii)(I), because a
Georgia driver’s license is available to non-citizens.
While the Board interprets the statute to include a ma­
teriality element, we have never applied the Board’s
construction of the statute in a published opinion.7
Thus, the initial inquiry is whether to defer to the
Board’s interpretation.
When an agency has authority to interpret a stat­
ute, we defer to its interpretation if the statute is am­
biguous and the interpretation is reasonable. See Chev­
ron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc., 467
U.S. 837, 842-44, 104 S. Ct. 2778, 2781-82 (1984). This
deference extends to precedential, three-member
Board decisions interpreting immigration law. See INS
v. Aguirre-Aguirre, 526 U.S. 415, 425, 119 S. Ct. 1439,
1445 (1999) (according Chevron deference to a Board
decision interpreting the Immigration and Nationality
7 In fact, we have never interpreted any part of
§ 1182(a)(6)(C)(ii)(I) in a published decision. Nor have we inter­
preted in a published decision 8 U.S.C. § 1227(a)(3)(D)(i), which
uses the exact same language to make an alien deportable for
falsely claiming citizenship.

91a
Act); see also Quinchia v. U.S. Att’y Gen., 552 F.3d
1255, 1258 (11th Cir. 2008) (holding that while Chevron
deference applies to precedential, three-member Board
decisions, it does not apply to single-judge Board deci­
sions that do not rely on precedent). Richmond is a
precedential, three-member Board decision.
1.
First, we determine whether the statute is ambig­
uous. If the statute is unambiguous, we simply apply
its plain meaning, and there is no room for deference.
See SEC v. Levin, 849 F.3d 995, 1003 (11th Cir. 2017).
A statute is ambiguous “if it is susceptible to more than
one reasonable interpretation.” In re BFW Liquida­
tion, LLC, 899 F.3d 1178, 1188 (11th Cir. 2018) (quota­
tion omitted). “In determining whether a statute is
plain or ambiguous, we consider the language itself, the
specific context in which that language is used, and the
broader context of the statute as a whole.” Id. (quota­
tion omitted). 8
8

Because we are interpreting an immigration law where re­
lief from removal hangs in the balance, there is another tool of
statutory construction we would normally consider—the rule of
lenity. See INS v. St. Cyr, 533 U.S. 289, 320, 121 S. Ct. 2271, 2290
(2001) (referencing “the longstanding principle of construing any
lingering ambiguities in deportation statutes in favor of the alien”
(quotation omitted)). But the rule of lenity is a rule of last resort.
See Moskal v. United States, 498 U.S. 103, 108, 111 S. Ct. 461, 465
(1990) (“[W]e have always reserved lenity for those situations in
which a reasonable doubt persists about a statute’s intended scope
even after resort to the language and structure, legislative history,
and motivating policies of the statute.” (quotation omitted)).
Thus, we do not employ the rule of lenity until we determine that
the statute is ambiguous through the usual tools of construction.
For this reason, it seems clear that—regardless of whether the
rule of lenity applies at step two of the Chevron inquiry, see Brian
G. Slocum, The Immigration Rule of Lenity and Chevron Defer-

92a
The plain meaning of the text is clear—there is no
materiality element. The statute reads, “Any alien who
falsely represents, or has falsely represented, himself
or herself to be a citizen of the United States for any
purpose or benefit under ... Federal or State law is in­
admissible.” § 1182(a)(6)(C)(ii)(I). The text makes
clear that the false representation must be made for a
purpose or benefit under the law. What does it mean to
do something for a purpose or benefit? In this context,
the word “for” is a fiinction used to indicate purpose, an
intended goal, or the object of an activity. For, Merriam-Webster.com, https://www.merriam-webster.com/
dictionary/for (last visited Feb. 4, 2019). Applied to the
statute, the alien must make the false representation
with the goal of obtaining a purpose or benefit under
the law.
It does not follow that the false representation
must be material to the purpose or benefit sought. Al­
iens can make a false representation with the goal of
obtaining a benefit, even if the false representation
does not help them achieve that goal. To illustrate,
consider the example of an ethically challenged student
who cheats on his test. The honor code prohibits using
unauthorized materials for the purpose of cheating, but
the student steals an answer key from the teacher’s
desk, memorizes the answers, and reproduces them on
the test exactly as they were recorded on the answer
key. Unfortunately for the student, the answer key
was for a different test, and he fails miserably. Is there
ence, 17 Geo. Immigr. L J. 515, 576-82 (2003), or if it only applies
after the court determines the agency’s decision is unreasonable,
see David S. Rubenstein, Putting the Immigration Rule of Lenity
in its Proper Place: A Tool of Last Resort After Chevron, 59 Ad­
min. L. Rev. 479, 504-19 (2007)—it has no place at step one, where
we decide if the statute is ambiguous in the first place.

93a
any doubt the student is guilty of cheating? He used
unauthorized material for the purpose of cheating. Just
because the answer key was immaterial, and did not
help the student achieve his goal, the student’s purpose
was still to cheat. Similarly, if an alien makes a false
representation of citizenship to obtain a benefit under
the law, but citizenship turns out to be completely un­
related to obtaining the benefit, the alien’s purpose was
still to obtain the benefit.
If Congress intended to make materiality an ele­
ment of the statute, it easily could have done so. For
example, the statute could have said “for any relevant
purpose or benefit,” or “for any material purpose or
benefit.” In fact, Congress did include a materiality el­
ement in the immediately preceding subsection, which
says: “Any alien who, by fraud or willfully misrepre­
senting a material fact, seeks to procure ... [an immi­
gration benefit] is inadmissible.”
8 U.S.C.
§ 1182(a)(6)(C)(i) (emphasis added). We presume that
Congress is deliberate when it includes a term in one
section of a statute but omits it in another. Ela v.
Destefano, 869 F.3d 1198, 1202 (11th Cir. 2017) (“It is
well settled that where Congress includes particular
language in one section of a statute but omits it in an­
other section of the same Act, it is generally presumed
that Congress acts intentionally and purposely in the
disparate inclusion or exclusion.” (quoting Duncan v.
Walker, 533 U.S. 167,173,121 S. Ct. 2120,2125 (2001))).
Thus, unless there is persuasive evidence to the contra­
ry, we assume that Congress intended to include a ma­
teriality element in § 1182(a)(6)(C)(i) but not in
§ 1182(a)(6)(C)(ii)(I).
As evidence, Patel says that we must read the
statute in context. Section 1182(a)(6)(C)(ii)(I) supple­
ments its immediate predecessor by expanding the

94a
range of benefits to which it applies—i.e., any purpose
or benefit under state or federal law, rather than any
immigration benefit. From this, Patel infers that Con­
gress’ only concern was with aliens falsely claiming citi­
zenship to get benefits restricted to U.S. citizens. But
that is not what the statute says. It does not say for
any purpose or benefit under the law “restricted to
U.S. citizens” or “available only to U.S. citizens.” Patel
asks us to add elements that are not in the text.
The context actually suggests that declining to
graft a materiality requirement onto the statute is con­
sistent with the statute’s purpose. Tellingly, Congress
made
§
1182(a)(6)(C)(i) waivable, but not
§ 1182(a)(6)(C)(ii)(I). See 8 U.S.C. § 1182(a)(6)(C)(iii).
This difference suggests that Congress thought falsely
claiming citizenship to get a public benefit is more seri­
ous than misrepresenting some other fact to get an im­
migration benefit. Refusing to impose a materiality re­
quirement is consistent with treating false claims of cit­
izenship more seriously. Furthermore, materiality is
an important limitation for § 1182(a)(6)(C)(i). There,
the misrepresentation could be about any fact, which
would be very broad without a materiality require­
ment. In contrast, § 1182(a)(6)(C)(ii)(I) only applies to
false claims about citizenship. This limitation substan­
tially narrows the provision’s applicability on its own.
Further bolstering our reading of the statute, the
Supreme Court reached the same conclusion when in­
terpreting another statute with very similar text. See
Kuhgys v. United States, 485 U.S. 759, 108 S. Ct. 1537
(1988). The statute at issue in Kungys provides that a
person is not of “good moral character” (and thus is in­
eligible for naturalization) if he “has given false testi­
mony for the purpose of obtaining any benefits under
[immigration law].” 8 U.S.C. § 1101(f)(6). For our pur-

95a
poses, the text is strikingly similar—it applies to some­
one who gives false testimony for a benefit under im­
migration law. Neither the statute in Kungys nor the
one in this case mentions materiality. The Supreme
Court held that the statute “does not distinguish be­
tween material and immaterial misrepresentations.”
Kungys, 485 U.S. at 779, 108 S. Ct. at 1551. “Literally
read,” the Court explained, it applies to a person “if he
has told even the most immaterial of lies with the sub­
jective intent of obtaining immigration or naturaliza­
tion benefits. We think it means precisely what it
says.” Id. at 779-80,108 S. Ct. at 1551.
Patel maintains that the statute in Kungys is dif­
ferent because it had a limited scope that avoided harsh
results. True, § 1182(a)(6)(C)(ii)(I) is broader in some
ways—it applies to oral and written statements,
whether or not under oath, for any purpose or benefit
under the law. See Kungys, 485 U.S. at 780, 108 S. Ct.
at 1551 (explaining that statute only applied to “oral
statements made under oath” for the purpose “of ob­
taining
immigration
benefits”).
But
§ 1182(a)(6)(C)(ii)(I) is also narrower in another im­
portant respect: it only applies to false claims of citi­
zenship. More to the point, the differences between the
statute in Kungys and the one in this case make perfect
sense. The statute in Kungys is about identifying mor­
al character—thus, lying under oath for any reason is
relevant. Here, if the goal is to deter aliens from falsely
claiming citizenship to get public benefits, it would be
counterproductive to limit the statute to oral state­
ments made under oath, since sworn testimony of citi­
zenship status often is not required to get public bene­
fits (such as a driver’s license).

96a
2.

Patel’s main argument for inserting a materiality
element into the statute is that without it the statute
will produce draconian results. Namely, he posits that
without a materiality element an alien could become
permanently inadmissible simply for checking the
wrong box on an application. At first glance, it appears
that Patel’s example—mistakenly checking the wrong
box—is really about whether the false claim to citizen­
ship must be knowing.9 Viewed in that light, it is
tempting to dismiss Patel’s example as unrelated to the
issue here: materiality. But in at least some cases, a
materiality element would prevent the draconian result
Patel puts forward. To see why, imagine that the stat­
ute requires materiality, and a non-citizen is seeking a
public benefit that is available to citizens and non­
citizens alike. The non-citizen mistakenly checks the
wrong box—falsely claiming citizenship for a public
benefit. If the statute requires materiality, pointing
out the immateriality of citizenship to the benefit
sought would be an effective defense. Nevertheless,
we are not persuaded by this argument to write a ma­
teriality element into the statute.
As a preliminary matter, even if we agree that the
statute allows for harsh or unfair consequences, that
does not give us license to ignore the plain meaning of
the text. We will look beyond the unambiguous plain
meaning of the text only if the "plain meaning produces
absurd results. Silva-Hernandez v. U.S. Bureau of Cit­
izenship & Immigration Servs., 701 F.3d 356, 363 (11th
Cir. 2012) (“This Court’s one recognized exception to
the plain meaning rule is absurdity of results.”). This is
a narrow exception—the results must be “truly ab9 See supra note 5.

97a
surd.”10 Silva-Hemandez, 701 F.3d at 363. “Otherwise,
clearly expressed legislative decisions would be subject
to the policy predilections of judges.” Id. (quoting
Merritt v. Dillard Paper Co., 120 F.3d 1181, 1188 (11th
Cir. 1997)). Our job when interpreting statutes is to
faithfully effectuate legislative intent, and we assume
that Congress would not intend truly absurd results.
See Pub. Citizen v. U.S. Dep’t of Justice, 491 U.S. 440,
470, 109 S. Ct. 2558, 2575 (1989) (Kennedy, J., concur­
ring) (“When used in a proper manner, this narrow ex­
ception to our normal rule of statutory construction
does not intrude upon the lawmaking powers of Con­
gress, but rather demonstrates a respect for the coe­
qual Legislative Branch, which we assume would not
act in an absurd way.”).
If a result is consistent with the statute’s purpose,
it is not the place of judges to declare the result absurd
and craft a different outcome. Cf. Silva-Hemandez,
701 F.3d at 364 (“Not only is the plain meaning of the
statute not absurd, it arguably furthers the legislative
intent[.]”); EEOC v. Commercial Office Prods. Co., 486
U.S. 107, 120, 108 S. Ct. 1666, 1674 (1988) (four votes)
(refusing to follow an interpretation that leads to “ab­
surd or futile results ... plainly at variance with the pol­
icy of the legislation as a whole” (alteration in original)
(quotation omitted)).
10 To illustrate, here are a few classic examples of absurd re­
sults: a statute criminalizing the obstruction of mail could not have
been intended to punish a police officer who lawfully arrested a
postal worker for homicide; an antiquated rule prohibiting drawing
blood in the streets could not have been meant to apply to a doctor
performing emergency surgery; and a law banning prison escapes
could not have been intended to punish an inmate for fleeing from
a burning prison. John F. Manning, The Absurdity Doctrine, 116
Harv. L. Rev. 2387,2402 (2003).

98a
While there is a narrow exception for absurd re­
sults, saying that a result is draconian is not the same
as saying it is absurd.11 Of course, draconian results
may help show absurdity. See Commercial Office
Prods. Co., 486 U.S. at 120, 108 S. Ct. at 1674 (four
votes) (relying on a “severe consequence, in conjunction
with [a] pointless delay,” to find that an interpretation
led to absurd results). But to be clear, there is no
standalone exception for draconian results. Such an ex­
ception would be a prescription for judicial legislating—
with courts altering the plain text of statutes each time
a case uncovers what one judge considers to be an in­
justice.
The result here is not absurd. Congress enacted
the provision to crack down on aliens falsely claiming
citizenship to get jobs and public benefits. See Castro
v. Att’y Gen., 671 F.3d 356, 368-69 (3d Cir. 2012) (re­
viewing legislative history). Applying the statute even
when citizenship is immaterial advances the legisla­
tion’s purpose because it deters aliens from falsely
claiming citizenship. Admittedly, the statute is written
broadly. We think Congress intended to do so. It is
consistent with Congress’ choice to not make the provi­
sion waivable. See § 1182(a)(6)(C)(iii).
Congress made one limited exception to inadmissi­
bility for falsely claiming citizenship. The statute pro­
vides that a person who falsely claims citizenship for a
public benefit is not inadmissible if: each parent is or
was a citizen, the person permanently resided in the
US before turning 16, and the person “reasonably be11 While the Supreme Court in Kungys made efforts to show
that a “literal reading of the statute does not produce draconian
results,” it did not say that the plain meaning should be ignored if
the statute had. Kungys, 485 U.S. at 780-81,108 S. Ct. at 1551-52.

99a
lieved ... that he or she was a citizen.”
§ 1182(a)(6)(C)(ii)(II). The exception suggests that
Congress thought about the consequences of the provi­
sion and carved out what it considered a harsh or unfair
result. By extension, other consequences do not war­
rant an exception. When Congress has made an excep­
tion for those who, in limited circumstances, falsely
claim citizenship by mistake, it is hard to see how ap­
plying the statute to those who are outside those cir­
cumstances is absurd. It seems to be precisely what
Congress intended.
3.

We turn briefly to the Board’s opinion in Rich­
mond. The Board’s analysis is flawed and unclear.12
However, because we conclude that the statute is un­
ambiguous on materiality, we need not determine
whether the Board’s interpretation is reasonable. Ra­
ther, we consider the Board’s textual arguments to in­
form our analysis of the plain meaning.
The Board derives the materiality element, not
from the “for any purpose or benefit” language, but
from the language “under this chapter ... or any other
Federal or State law.” § 1182(a)(6)(C)(ii)(I); see Rich­
mond, 26 I. & N. Dec. at 784. As best we can tell, the
opinion figures that since the statute defines the scope
of the purpose or benefit with reference to other feder­
al or state law, citizenship must be material to the pur­
pose or benefit sought. See id. at 784, 786-87. If you

For a discussion of the problems with the Board’s reason­
ing, see Teye v. U.S. Att’y Gen., 740 F. App’x 944, 948-51 (11th Cir.
2018) (O’Scannlain, J., concurring).

100a
think that argument is unclear, so do we.13 At any rate,
Patel’s case demonstrates the fallacy of that reasoning.
The parties agree that a driver’s license is a benefit un­
der the law. Even if citizenship is immaterial to getting
a license, it does not change the fact that a license is
still a benefit under the law. Put differently, the text
does not require that the purpose or benefit sought be
one restricted or available only to citizens.
The other reason the Board gave for finding a ma­
teriality element was to ensure that the statute is not
“read so broadly that it fails to exclude anything.” Id.
at 784. The purpose or benefit language must do some
work. We agree. But it does not follow that without a
materiality element, the language is superfluous. The
statute would still require that the purpose or benefit
arise under the law. To state an obvious example—
though we do not suggest that this is the outer limit of
the statute’s reach—if someone falsely claims to be a
citizen in casual conversation with a friend, perhaps be­
cause they are embarrassed about their citizenship sta­
tus or are worried they will be judged, that is not for a
purpose or benefit under the law. Since the parties
agree that a driver’s license is a benefit under the law,
we do not need to decide the contours of the purpose or
benefit requirement. See, e.g., Castro, 671 F.3d at 370
(finding that minimizing the risk of detection is not nec11

Here is what the Board said: Because of the word “under,”
the statute “is dependent on the statutory provisions of the Act or
any other Federal or State law. Therefore, we interpret the
phrase ... to mean that a false claim must be made to achieve a
purpose or benefit that is governed by one of these laws. We also
... find that the presence of a ‘purpose or benefit’ ... must be de­
termined objectively ... [T]hat is, the United States citizenship
must actually affect or matter to the purpose or benefit sought.”
Id. at 784, 787.

101a
essarily a benefit under the law for the statute’s pur­
poses). It suffices to note that the requirement can
provide a meaningful limit without a materiality ele­
ment.
*

*

*

In sum, the statute renders inadmissible an alien
who (1) falsely claims to be a citizen (2) with the intent
of obtaining a purpose or benefit (3) that arises under
federal or state law.14 It does not require that citizen­
ship be material to the purpose or benefit sought. For
this reason, Patel’s argument that he does not qualify
under the statute because his false representation was
not material is, well, immaterial.
IV.
Patel’s petition for review is denied.
PETITION DENIED.

14 While our rephrasing of the statute omits the language
“under this chapter (including section 1324a of this title),” we do
not mean it should be overlooked. This language is important. See
Diaz-Jimenez v. Sessions, 902 F.3d 955, 958-59 (9th Cir. 2018)
(noting that the reference to § 1324a makes it clear that seeking
private employment qualifies as a purpose or benefit under the
statute). Our reduction of this part of the statute throughout the
opinion to “under the law” is a stylistic convenience.

102a
NEWSOM, Circuit Judge, concurring:
I concur in the judgment, and I join in the Court’s
opinion except for footnotes 4 and 5, which seem to me
unnecessary to the resolution of the case.

103a
APPENDIX C
U.S. Department of Justice
Executive Office for Immigration Review
Decision of the Board of Immigration Appeals
Files: A073 652 334 Atlanta, GA
A072 565 851; A073 546 027
In re: Jyotsnaben P Patel
Pankajkumar Somabhai Patel
Nishantkumar Patel
January 17, 2017
CHARGE:
Notice: Sec. 212(a)(6)(A)(i), I&N Act [8 U.S.C.
§ 1182(a)(6)(A)(i)] - Present without being
admitted or paroled (all respondents)
APPLICATION:
Adjustment of status
IN REMOVAL PROCEEDINGS
APPEAL
ON BEHALF OF RESPONDENTS:
R. Scott Oswald, Esquire
The respondents, natives and citizens of India, have
appealed from the decision of the Immigration Judge
dated May 9, 2013. In that decision, the Immigration
Judge made an adverse credibility finding against the

104a
lead respondent (072 565 851) (I.J. at 4).1 The Immigra­
tion Judge then determined that the lead respondent has
not established that he is clearly and beyond doubt ad­
missible for adjustment of status under section
212(a)(6)(C)(ii) of the Immigration and Nationality Act, 8
U.S.C. § 1182(a)(6)(C)(ii), and is, therefore, ineligible for
adjustment of status under section 245(i) of the Act, 8
U.S.C. § 1255(i) (I.J. at 2-7). As the remaining respond­
ents are derivative beneficiaries of the lead respondent’s
application for adjustment of status, they have also been
rendered ineligible for adjustment of status.2 See Matter
ofNaulu, 19 I&N Dec. 351,353 (BIA1986).
On appeal the respondents challenge the Immigra­
tion Judge’s adverse credibility finding, and they renew
their argument that the lead respondent is not inadmis­
sible under section 212(a)(6)(C)(ii) of the Act (Tr. at 94).
The respondents concede that the lead respondent
falsely represented himself to be a citizen of the United
States when he marked the box on an application for a
noncommercial Georgia driver’s license indicating that
1

The lead respondent’s wife (073 652 334) is indicated as the
lead respondent in the caption because these cases were consoli­
dated after the initiation of removal proceedings against each re­
spondent separately (Tr. at 4-6).
2 The Immigration Judge denied the applications for volun­
tary departure under section 240B(b) of the Act, 8 U.S.C.
§ 1229c(b), for the lead respondent and his wife, but granted the
application of their son (073 546 027) (I J. at 7). The Immigration
Judge’s grant of voluntary departure to 073 546 027 will not be
reinstated because, after having received the requisite advisals,
see Mauer of Gamero, 25 I&N Dec. 164, 165-68 (BIA 2010), the
rider respondent has not provided timely proof that the voluntary
departure bond was posted within 30 days of filing the Notice of
Appeal. See 8 C.F.R. § 1240.26(c)(3)(ii). In any event, the record
reflects that the respondents were not really interested in volun­
tary departure (Tr. at 107).

105a
he is a United States citizen (Tr. at 93, 102). But the
respondents assert that the lead respondent did not do
so “for any purpose or benefit under ... any other Fed­
eral or State law ...” See section 212(a)(6)(C)(ii) of the
Act. Rather, the respondents argue that, because the
lead respondent was “otherwise eligible” to receive a
noncommercial Georgia driver’s license as the recipient
of a valid employment authorization document, no
“purpose or benefit” can be ascribed to the lead re­
spondent’s false representation of United States citi­
zenship (Tr. at 94). We are not convinced. Accordingly,
the respondents’ appeal will be dismissed.3
Under section 240(c)(2)(A) of the Act, the respond­
ents, not the Department of Homeland Security, have
the burden of establishing that the lead respondent is
“clearly and beyond doubt entitled to be admitted and
is not inadmissible” under section 212(a)(6)(C)(ii) of the
Act. See, e.g., Richardson v. Reno, 162 F.3d 1338,1346
n. 23 (11th Cir. 1998), cert, granted and vacated on oth­
er grounds 526 U.S. 1142 (1999); see also 8 C.F.R.
§ 1240.8(b). The respondents must establish “clearly
and beyond doubt” that the lead respondent did not
make the false representation of United States citizen­
ship in order to obtain a noncommercial Georgia driv3 During the pendency of the appeal, attorney Eli A. Echols
entered his appearance on behalf of the respondent Nishantkumar
Patel (073 546 027), and he submitted a motion for administrative
closure or remand on his behalf on November 7, 2016. The motion
is based on the respondent’s marriage to a United States citizen.
However, the motion is not supported by any application for relief
or evidence beyond proof of the marriage and the citizenship sta­
tus of the respondent’s spouse. Accordingly, the motion will be
denied. See generally Matter of Avetisyan, 25 I&N Dec. 688 (BIA
2012); see also section 240(c)(7)(B) of the Immigration and Nation­
ality Act, 8 U.S.C. § 1229a(c)(7)(B); 8 C.F.R. § 1003.2(c)(4). A copy
of this decision will be sent to attorney Eli A. Echols.

106a
er’s license, which, the respondents do not dispute, con­
stitutes a “benefit” provided under Georgia state law
(Tr. at 9-10).
We review the Immigration Judge’s factual findings
for clear error only, and on the record before us, we see
no clear error in the Immigration Judge’s factual finding
that the lead respondent: (1) has not been a credible
witness; and (2) falsely represented himself to be a citi­
zen of the United States for the purpose of obtaining a
noncommercial Georgia driver’s license.4 See 8 C.F.R.
§ 1003.1(d)(3)(i); see also United States v. National Ass’n
of Real Estate Bds., 339 U.S. 485,495 (1950) (stating that
a factual finding is not “clearly erroneous” merely be­
cause there are two permissible views of the evidence);
Matter of Richmond, 26 I&N Dec. 779, 784 (BIA 2016)
(“Whether the respondent’s false claim was made with a
subjective intent is a question of fact to be determined
by the immigration Judge.”).
The Immigration Judge found that the lead re­
spondent is not a credible witness. In making the ad­
verse credibility finding, the Immigration Judge permis­
sibly identified: (1) the respondent’s discrepant testimo­
ny to the documents he submitted to the State of Geor­
gia in support of the noncommercial driver’s license ap­
plication (I J. at 3; Tr. at 54-55, 57-58, 61-62; Exh. H-6);
4 We are not bound by our prior unpublished decisions (Re­
spondent’s Br. at Tab J). See Matter of Zangwill, 18 I&N Dec. 22,
27 (BIA 1982), overruled on other grounds, Matter of Ozkok, 19
I&N Dec. 546 (BIA 1988). We further note that, to the extent the
documents appended to the respondents’ appeal brief are intended
as evidence—not legal authority—that has not been submitted to
the Immigration Judge, we are not allowed to consider this evi­
dence and make independent fact-findings based thereupon. See 8
C.F.R. § 1003.1(d)(3)(iv); Matter of S-H-, 23 I&N Dec. 462 (BIA
2002); Matter of Fedorenko, 19 I&N Dec. 57, 74 (BIA 1984).

107a
(2) the respondent’s inaccurate testimony that he pro­
vided his alien registration number on the noncommer­
cial driver’s license application (I.J. at 4; Tr. at 58, 61;
Exh H-6); and (3) the respondent’s false representation
of his manner of entry into the United States on a previ­
ously submitted application for asylum (I.J. at 4; Tr. at
82, 87; Exhs. H-7, H-8). Accordingly, the adverse credi­
bility finding is not clearly erroneous. See U.S. Com­
modity Futures Trading Com’n v. Hunter Wise Com­
modities, LLC, 749 F.3d 967,974 (11th Cir. 2014).
Next, the Immigration Judge found that the lead
respondent “willfully and purposefully indicated that he
was a United States citizen” (I.J. at 5). The Immigra­
tion Judge rejected the lead respondent’s explanation
that he “made a mistake” as implausible and, according­
ly, gave the explanation “‘little credence” (I.J. at 5; Tr.
at 53-55). As the lead respondent’s testimony consti­
tutes the most probative evidence of his subjective in­
tent in making the false representation of United
States citizenship—and especially in view of the ad­
verse credibility finding—we do not see clear error in
this finding of fact.
On appeal the respondents renew the argument
that United States citizenship is not required in order
to obtain a noncommercial driver’s license in Georgia,
and thus, that there was no objective necessity for the
lead respondent’s false representation of United States
citizenship (Tr. at 53-54).5 See Matter of Richmond,
supra, at 784 (recognizing that “the presence of a ‘pur5 We also note that the lead respondent was seeking renewal
of a previously issued noncommercial driver’s license (Tr. at 55).
However, the respondents have not submitted the applications for
the previously issued noncommercial driver’s licenses to show
whether the lead respondent did or did not falsely represent him­
self to be a United States citizen in those prior instances.

108a
pose or benefit’ under section 212(a)(6)(C)(ii)(I) must be
determined objectively”). However, the lead respond­
ent did not testify credibly, and he did not testify di­
rectly to the objective necessity of proving United
States citizenship to obtain a noncommercial Georgia
driver’s license.
Moreover, it is the respondents’ burden to establish
that the lead respondent is clearly and beyond doubt
admissible for adjustment of status under section
212(a)(6)(C)(ii) of the Act. As recognized by the Immi­
gration Judge, the “clear implication of the questions
set forth in the driver’s license application is that the
respondent needed to show that he was either a citizen
or a lawfully admitted alien in order to obtain the driv­
er’s license” (I.J. at 5). The respondent has presented
no evidence to refute this or to otherwise show that the
question on the application regarding citizenship or
lawful status was not relevant to whether the applica­
tion was approved. See Richmond, swpra, at 787 (ob­
jective component means citizenship affects or matters
to the purpose or benefit).
In conclusion, the respondents have not demon­
strated that the lead respondent is admissible for ad­
justment of status under section 212(a)(6)(C)(ii) of the
Act. Accordingly, the following orders will be entered.
ORDER: The respondents’ appeal is dismissed.
FURTHER ORDER: The motion to administra­
tively close or remand filed for the respondent
Nishantkumar Patel (073 546 027) is denied.
____ signature
FOR THE BOARD

109a
U.S. Department of Justice
Executive Office for Immigration Review
Decision of the Board of Immigration Appeals
Files: A073 652 334 Atlanta, GA
A072 565 851; A073 546 027
In re: Jyotsnaben P Patel
Pankajkumar Somabhai Patel
Nishantkumar Patel
January 17,2017
DISSENTING OPINION:
Linda S. Wendtland, Board Member
I respectfully dissent and would reverse the Immi­
gration Judge’s determination that the lead respondent
Pankajkumar Patel (A072 565 851) failed to show that
he was not inadmissible under section 212(a)(6)(C)(ii) of
the Immigration and Nationality Act on the basis of a
false claim to United States citizenship. Even assum­
ing for purposes of this appeal that the lead respondent
falsely claimed citizenship with the subjective intent of
achieving a covered purpose or benefit, inadmissibility
cannot arise because his lack of citizenship did not “ac­
tually affect or matter to the purpose or benefit
sought.” Matter of Richmond, 26 I&N Dec. 779, 787
(BIA2016).
Specifically, the pertinent Georgia regulation re­
quired applicants for non-commercial driver’s licenses
to provide proof of citizenship of lawful presence in the
United States, and it is undisputed that the respondent
had a valid employment authorization document and a
pending adjustment of status application at the time he

110a
sought a driver’s license in December 2008. Therefore,
he was eligible for a driver’s license under the true
facts, and his citizenship claim did not “actually affect
or matter to” his ability to attain that purpose or bene­
fit. Id:, see Georgia Admin. Code § 375-3-l-.02(6); 6
C.F.R. § 37.3 (stating that, for purposes of Part 37,
“Real ID Driver’s Licenses and Identification Cards,” a
person in “lawful status” is, inter alia, an alien who has
a pending application for lawful permanent residence);
see also Hassan v. Holder, 604 F.3d 915, 928-29 (6th
Cir. 2010).
Additionally, the majority opinion does not explain
why the submitted evidence of a grant of deferred ac­
tion under the Deferred Action for Childhood Arrivals
program in the case of respondent Nishantkumar Patel
(A073 546 027) does not suffice to warrant a grant of his
motion for administrative closure.
signature_____
Linda S. Wendtland
Board Member

111a
APPENDIX D
United States Department of Justice
Executive Office for Immigration Review
United States Immigration Court
File: A073-652-334
In the Matter of
Jyotsnaben P Patel, Respondent
IN REMOVAL PROCEEDINGS
May 9,2013
CHARGES:
Section 212(a)(6)(A)(i) of the
Immigration and Nationality Act.
APPLICATIONS:
Adjustment of status under Section 245(i)
of the Immigration and Nationality Act.
ON BEHALF OF RESPONDENT:
R. SCOTT OSWALD
888 17th Street, Northwest, Suite 900
Washington, D.C. 20006-3307
ON BEHALF OF DHS: ABBY LYNN MEYER
ORAL DECISION OF THE IMMIGRATION JUDGE
This case came before the Court as the result of
Notices to Appear that were issued by the Department
of Homeland Security. The charging document alleges
that the respondents are each natives and citizens of

112a
India and that each is removable from then United
States pursuant to Section 212 of the Immigration and
Nationality Act. Each respondent has admitted the
factual allegations in the Notice to Appear and has con­
ceded removability. In light of the foregoing, the Court
finds by clear and convincing evidence that the re­
spondents are each removable from the United States
as charged. The Court sustains the charge of removal
and designates India in each case.
The respondents have filed an application for ad­
justment of status. The lead male respondent has an
approved 1-140 employment authorization document.
The application was previously denied by the United
States Immigration and Citizenship Service on the
grounds that the respondent is ineligible to adjust his
status in the United States because he failed to show
that he is not inadmissible on the grounds of having
falsely claimed to be a United States citizen. The re­
spondents have sought a review of that denial in the
Court. The Court has jurisdiction to review the matter.
The record for the Court’s consideration includes
eight exhibits. The Court has numbered them H-l
through H-8. There are other documents in the record
that the Court has considered at various points. But
for the purposes of streamlining the discussion and the
focus in this case, the parties have agreed that the rele­
vant documents for the Court to consider at this junc­
ture are the exhibits just mentioned. In addition, the
respondent testified in support of his application.
There is no dispute that the lead respondent is stat­
utorily eligible for relief. He has the appropriate docu­
ments. The only issue is whether the respondent’s visa
is currently available. The respondent argues that it is.
The Court need not address that issue at this time.

113a
The Court notes that one of the requirements for
adjustment of Status is that the respondent must show
that he is not otherwise inadmissible to the United
States. That is the focus of this hearing today. And if
the respondent is unable to show that he is admissible,
then his application will be denied.
There is no dispute that the respondent filed for a
driver’s license in the state of Georgia in 2008. There is
no dispute that he claimed on the application that he is
a United States citizen. The respondent said that he
made a mistake when he checked the box. What is un­
clear to the Court is what the mistake allegedly is. The
respondent was not candid with the Court and was
somewhat evasive when asked to explain the mistake.
The attorney proffers reasons for the mistake, but it is
clear from the respondent’s own testimony that he is
not forthcoming to the Court, as he claims that there
was, in fact, a mistake. The respondent said that he did
not mean to check the box.
During cross-examination, the respondent was
asked more pointed questions about the application
that he filed. The respondent stated, both on direct and
on cross-examination, that he provided the officials
with the state of Georgia a copy of his employment au­
thorization card or document. The Government has
submitted a document that was filed by the respondent,
and it reflects that the respondent submitted only one
document in support of his driver’s license application.
See H-6. In other words, this document indicates that
the respondent submitted only an old Georgia driver’s
license, not his employment authorization card.
This is significant because the respondent’s initial
testimony is that he submitted only his employment
authorization card. Indeed, the respondent’s testimony

114a
is inconsistent with the very document itself. In fact,
respondent admitted only during cross-examination
that he submitted more than just the one employment
document. He agreed that he, in fact, submitted a
Georgia driver’s license. That is not what the respond­
ent testified to on direct. The Court points this out be­
cause the respondent has not provided credible and
consistent documents in this case. His testimony con­
cerning the documents that he submitted to the driv­
er’s license authorities is inconsistent. His statement
that he provided only the employment authorization
letter was contradicted during cross-examination, when
he admitted that he actually submitted a driver’s li­
cense as well.
The respondent said that when he filled out the
driver’s license application, he provided his alien regis­
tration number. Again, the Government points to the
exhibit at H-6. The respondent’s statement that he
provided his alien registration number is simply not
credible. In fact, the document reflects that no alien
registration number is set forth anywhere on the form.
That is because the form asks whether respondent is a
citizen and requires the alien registration number only
if the respondent is not. In this case, the form reflects,
and the respondent acknowledges, that he checked the
box stating that he is a citizen. The fact is that the re­
spondent’s claim to be a citizen did not require him to
put down his alien registration number. To the extent
that the respondent claims that he made a mistake, he
says that he did so and placed his alien registration
number on the form instead. That is not true, and the
respondent’s testimony to that effect is not credible.
The Court finds that the respondent falsely claimed
to be a United States citizen. The Court must also ad­
dress the respondent’s overall credibility in this case.

116a
the respondent’s burden to show that he was otherwise
eligible. The misrepresentation in question relates to
the application in 2008. The Court is well aware that
the standards and requirements change. That is why
the misrepresentation only appears in connection with
this particular application.
There is no indication that respondent filed for pre­
vious driver’s license applications by disclosing that he
was a citizen or somehow providing information that
was not accurate. The respondent did not show other
applications that he may have filed to reflect that he
was somehow eligible for a driver’s license previously,
but continued to be eligible even if he were no longer a
citizen. The clear implication of the questions set forth
in the driver’s license application is that the respondent
needed to show that he was either a citizen or a lawful­
ly admitted alien in order to obtain the driver’s license.
That is the scope of the questions when it asks the re­
spondent to state whether he is a citizen, or, if not, a
resident. The respondent is neither. He was and is nei­
ther a citizen or a lawful permanent resident. The
Court can discern no accurate answer that the re­
spondent could have set forth on this application that
would have allowed him to obtain a driver’s license. It
is clear that the form then asked the respondent to
show one of two forms of status in the United States,
and he had neither. The respondent has not shown that
he is somehow or was somehow eligible to obtain a
driver’s license if he had disclosed that he was neither a
citizen or a lawful permanent resident or the United
States.
To the extent that the respondent suggests that it
is the Government’s burden to show that he was some­
how still eligible to receive a driver’s license based on
his work authorization, the Court rejects this sugges-

117a
tion. It is the respondent’s burden to show eligibility
for relief. The respondent has submitted evidence to
the Court in the form of an unpublished decision, sug­
gesting that the decision by the panel is somehow on all
fours with this case. The particular case cited by the
respondent involves a totally different set of facts. In
that case, the Government bore the burden of showing
that the respondent was removable from the United
States for having falsely claimed to be a United States
citizen. In that case, the Government bore the burden
of proof and presumably did not meet its burden by
making the required showing. In this case, the re­
spondent bears the burden of proof. This case is not on
all fours with the unpublished decision as cited by the
respondent. In any event, the unpublished decision is
not binding on the Court. The Court finds little credi­
ble evidence that the respondent was somehow eligible
for a driver’s license when he falsely represented him­
self to be a United States citizen.
The respondent has filed for relief, and he is re­
quired to show that he is not inadmissible. On the evi­
dence, including the respondent’s testimony, the Court
finds that the respondent has not shown that he is not
inadmissible for having falsely claimed to be a United
States citizen. The respondent is not eligible for a
waiver because he does not have any qualifying rela­
tives. The Court will deny the application for adjust­
ment of status for the lead respondent because he has
not shown that he is not inadmissible.
The other respondents are derivatives in this case.
Because the lead respondent’s application is denied, the
riders are also denied because they depend on the lead
respondent’s eligibility for their own individual forms of
relief. In view of the foregoing, the Court would deny

118a
the applications filed by each of the respondents in this
case.
The respondents have requested voluntary depar­
ture. The Court will deny the applications for volun­
tary departure. The lead respondent has falsely
claimed to be a United States citizen in this case. The
Court has also looked at the applications for waivers in
this case, and under the facts of this case, would not
grant voluntary departure to the respondent’s wife.
The Court will grant voluntary departure to the re­
spondent’s son, Nikesh Kumar, only. The Court will
impose a voluntary bond of $10,000, which must be paid
within five business days.
The Court will enter the following order in this
case.
ORDER
IT IS HEREBY ORDERED that the respondents’
application for adjustment of status under Section
245(i) of the Immigration and Nationality Act be, and
hereby is, denied.
IT IS FURTHER ORDERED that respondent,
Jyotsnaben Patel, A 073 652 334, and respondent,
Pankaj Kumar Patel, A 072 565 851, be removed from
the United States based on the charge set forth in the
Notice to Appear, and that they be deported to India.
IT IS FURTHER ORDERED that respondent,
Nikesh Nishant Kumar Patel, A 073 546 027, be grant­
ed voluntary departure up to and including July 8,2013,
which is 60 days from today, upon the posting of a bond
of $10,000 within five business days, with an alternate
order of removal to India.

119a
WARNING TO RESPONDENT NIKRSH KUMAR
PATEL. A 073 546 027
Failure to leave the United States as agreed means
that you could be removed from this country, you may
have to pay a civil penalty of between $1,000 and
$5,000, and you will be ineligible for 10 years to come
from receiving cancellation of removal, adjustment of
status, change of status, voluntary departure, or relief
under the registry provisions.
Respondent, Kumar, is also advised that if he re­
serves appeal and files an appeal, he must provide the
Board of Immigration Appeals, within 30 days of filing
an appeal, sufficient evidence of proof of having posted
the voluntary departure bond. The respondent, A 073
546 027, is advised that if he does not provide the Board
of Immigration Appeals sufficient proof of having post­
ed the voluntary departure bond, that the Board will
not reinstate the voluntary departure bond in its final
order.
Respondent is also advised that the Court has set
the civil monetary penalty in this case at the presump­
tive amount of $3,000.
Please see the next page for electronic
signature
EARLE B WILSON
Immigration Judge
//s//
Immigration Judge EARLE B WILSON
wilsone on August 22,2013 at 6:03 PM GMT

122a
In the case of an alien making a
representation described in sub­
clause (I), if each natural parent of
the alien (or, in the case of an
adopted alien, each adoptive parent
of the alien) is or was a citizen
(whether by birth or naturaliza­
tion), the alien permanently resid­
ed in the United States prior to at­
taining the age of 16, and the alien
reasonably believed at the time of
making such representation that
he or she was a citizen, the alien
shall not be considered to be inad­
missible under any provision of this
subsection based on such represen­
tation.
(iii) Waiver Authorized
For provision authorizing waiver of
clause (i), see subsection (i)

123a
8 U.S.C. § 1252
Section 242 of the Immigration and Nationality Act,
codified at 8 U.S.C. § 1252, provides in relevant part:
(a) Applicable provisions
(2) Matters not subject to judicial review
(A) Review relating to section 1225(b)(1)
Notwithstanding any other provision of law
(statutory or nonstatutory), including section
2241 of title 28, or any other habeas corpus
provision, and sections 1361 and 1651 of such ti­
tle, no court shall have jurisdiction to review—
(i) except as provided in subsection (e),
any individual determination or to enter­
tain any other cause or claim arising from
or relating to the implementation or opera­
tion of an order of removal pursuant to sec­
tion 1225(b)(1) of this title,
(ii) except as provided in subsection (e), a
decision by the Attorney General to invoke
the provisions of such section,
(iii) the application of such section to indi­
vidual aliens, including the determination
made under section 1225(b)(1)(B) of this ti­
tle, or
(iv) except as provided in subsection (e),
procedures and policies adopted by the At­
torney General to implement the provisions
of section 1225(b)(1) of this title.

I

124a
(B) Denials of discretionary relief
Notwithstanding any other provision of law
(statutory or nonstatutory), including sec­
tion 2241 of title 28, or any other habeas
corpus provision, and sections 1361 and
1651 of such title, and except as provided in
subparagraph (D), and regardless of
whether the judgment, decision, or action
is made in removal proceedings, no court
shall have jurisdiction to review—
(i) any judgment regarding the grant­
ing of relief under section 1182(h),
1182(i), 1229b, 1229c, or 1255 of this ti­
tle, or
(ii) any other decision or action of the
Attorney General or the Secretary of
Homeland Security the authority for
which is specified under this subchap­
ter to be in the discretion of the Attor­
ney General or the Secretary of Home­
land Security, other than the granting
of relief under section 1158(a) of this ti­
tle.
(C) Orders against criminal aliens
Notwithstanding any other provision of law
(statutory or nonstatutory), including section
2241 of title 28, or any other habeas corpus
provision, and sections 1361 and 1651 of such ti­
tle, and except as provided in subparagraph
(D) , no court shall have jurisdiction to review
any final order of removal against an alien who
is removable by reason of having committed a
criminal offense covered in section 1182(a)(2) or

\

125a
1227(a)(2)(A)(iii), (B), (C), or (D) of this title, or
any offense covered by section 1227(a)(2)(A)(ii)
of this title for which both predicate offenses
are, without regard to their date of commission,
otherwise covered by section 1227(a)(2)(A)(i) of
this title.
(D) Judicial review of certain legal claims
Nothing in subparagraph (B) or (C), or in
any other provision of this chapter (other
than this section) which limits or eliminates
judicial review, shall be construed as pre­
cluding review of constitutional claims or
questions of law raised upon a petition for
review filed with an appropriate court of
appeals in accordance with this section.

